&

No.
In the
Supreme Court of the United States
John B. Freitas
Petitioner
v.
Bank of America,
Respondent
On Petition for a Writ of Certiorari
to the
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Case #19-17394
PETITIONER’S APPENDIX

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX A
“MEMORANDUM” NINTH CIRCUIT OPINION

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 22 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-17394

JOHN B. FREITAS,
Plaintiff-Appellant,

D.C. No. 3:19-CV-03347-WHA

v.
MEMORANDUM*
BANK OF AMERICA,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Submitted March 16, 2021**
Before:

GRABER, R. NELSON, and HUNSAKER, Circuit Judges.

John B. Freitas appeals pro se from the district court’s order dismissing his
action alleging federal and state law claims arising out of foreclosure proceedings.
We have jurisdiction under 28 U.S.C. § 1291. We review de novo a district court’s
dismissal based on claim preclusion. Stewart v. U.S, Bancorp, 297 F.3d 953, 956

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
—------ !*___ The pancLunaniniously concludes this casejs suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

(9th Cir. 2002). We affirm.
The district court properly dismissed Freitas’s action as barred by the
doctrine of claim preclusion because Freitas had already litigated the validity of the
operative deed of trust in prior state court actions, which involved the same parties,
and resulted in final judgments on the merits . See DKN Holdings LLC v. Faerber,
352 P.3d 378, 386 (Cal. 2015) (elements of claim preclusion under California law).
Although Freitas argues that the present action involves a different cause of
action because at the time the trustee’s sale was conducted there were two
competing trustees under two deeds of trust securing the same obligation, the
trustee’s sale was conducted by the properly substituted trustee under the operative
deed of trust, as had been determined in the prior state court actions. See Boeken v.
Philip Morris USA, Inc., 240 P.3d 342, 348 (Cal. 2010) (“[A] judgment for [a]
defendant is a bar to a subsequent action by the plaintiff based on the same injury
to the same right, even though he presents a different legal ground for relief.”
(quotation marks omitted; emphasis in original)); cf. Dimock v. Emerald Props.
LLC, 97 Cal. Rptr. 2d 255 (Ct. App. 2000) (the recording of the substitution of
trustee under California Civil Code § 2934a gave the second trustee the exclusive
power to conduct a trustee’s sale rendering the sale conducted by the first trustee
void).

2

19-17394

We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.

3

19-17394

19-17394

John B. Freitas
36937 Cherry St.
Newark, CA 94560

)

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX B
DISTRICT COURT OPINION

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

Case 3:19-cv-03347-WHA Document 51 Filed 11/11/19 Page 1 of 6

1
2
3
4
5
6
7

IN THE UNITED STATES DISTRICT COURT

8
FOR THE NORTHERN DISTRICT OF CALIFORNIA
9
10
11
3

O

«

u 1

12

u =3

13

is O
.52 8

O I
W5

<U

a

E

45 Ji
^

o

4)

u.o

(/) 2
T3 a

a

14
15
16

No. C 19-03347 WHA

JOHN FREITAS,
Plaintiff,

ORDER RE MOTION TO DISMISS
AND REQUEST FOR JUDICIAL
NOTICE

v.
BANK OF AMERICA N.A. and DOES
1-60,
Defendants.

17
INTRODUCTION

18
19
20
21
22

In this foreclosure case, defendants move to dismiss. For the following reasons, the
motion is GRANTED.
STATEMENT
In 2004, pro se plaintiff, John Freitas obtained a loan for $333,700 from Countrywide

23

Bank N. A. secured by a deed of trust and assignment of rents on real property located in

24

Newark. On October 5, 2005, he obtained another loan for $349,840 from Countrywide secured

25

by a deed of trust and assignment of rents on the same property. A second version of the same

26

document was recorded on October 25, 2005. The only difference between the two documents
was that the first document contained a signature line for plaintiffs wife, which he initialed,

28

whereas the later deed did not. In 2011, plaintiff defaulted on his loans and defendant Bank of

Case 3:19-cv-03347-WHA Document 51 Filed 11/11/19 Page 2 of 6

1

America, N.A. recorded a notice of default in April 2014. Bank of America is a successor in

2

interest of Countrywide. In 2016, the October 5 deed of trust was reconveyed to plaintiff.

3

Meanwhile, in February 2016, plaintiff filed an action in Alameda County Superior

4

Court alleging fraud and cancellation and rescission of written instruments stating that his

5

October 25 deed of trust had been reconveyed, but that Bank of America had still threatened to

6

foreclose on the property. A 2016 order sustained the demurrer to the complaint and the state

7

court entered judgment in Bank of America’s favor. Plaintiff unsuccessfully appealed to the

8

California Court of Appeal and then the California Supreme Court. Judgment became final in

9

August 2017 when the California Court of Appeal issued a remittitur. Freitas v. Bank of

10
11

America, N.A., et al, Case No. RG15792569 {Freitas I).

’

In January 2018, plaintiff filed another action in Alameda County Superior Court

3

dI

12

alleging the following claims as to his October 25 deed of trust and corresponding loan: (1)

•c 3

13

“preliminary and permanent injunction,” (2) quiet title, (3) slander of title, (4) conspiracy to

a |

14

slander title, (5) violation of Section 2923.5 of the California Civil Code, and (6) violation of

<g I
a £

15

Section 17200 of the California Business and Professions Code. Freitas v. Bank of America,

t/i z<D

16

N.A., et al, Case No. RG17877297 {Freitas II). A May 2018. order sustained Bank of

17

America’s demurrer without leave to amend. In August 2018, the state court dismissed the

18

action with prejudice and entered judgment against plaintiff.

£

■*->

o

.S3 |
-

■si
fcu

a

19

Plaintiff then commenced an action in July 2018 in the United States District Court for

20

the Northern District of California naming twelve defendants, including Bank of America, N.A.

21

alleging the following claims as to his 2004 deed of trust and corresponding loan: (1) unfair and

22

deceptive consumer practices with respect to loan servicing, foreclosure processing, and loan

23

origination; (2) violation of the Financial Institutions Reform, Recovery and Enforcement Act

24

of 1989; (3) declaratory judgment; (4) bankruptcy misconduct; (5) quiet title; (6) slander of

25

title; (7) conspiracy to slander title; (8) violation of Section 2923.5 of the California Civil Code;

26

and (9) violation of Section 17200 of the California Business and Professions Code. Also in

27 _ July 2018, plaintiff filed an application for a temporary restraining order to halt the foreclosure
28

of his residence. A July 2018 order denied the temporary restraining order on the ground
2

Case 3:19-cv-03347-WHA Document 51 Filed 11/11/19 Page 3 of 6

1

plaintiff did not raise serious questions going to the merits. A September 2018 order ultimately

2

dismissed the case for failure to prosecute (Case No, 18-cv-03993, Dkt. Nos. 1, 2, 21,

3

30){Freitas III).

4

+•>
u
©

Following the foreclosure sale of the underlying property, plaintiff commenced the

5

instant action in June 2019 against Bank of America alleging, as to his October 25 deed of trust

6

and corresponding loan, the same claims as Freitas III as well as other miscellaneous non-legal

7

claims such as “the deed of trust on which defendant B of A has foreclosed is void” and “the

8

debt, if there ever were a debt, has been satisfied.” He then filed a motion for a temporary

9

restraining order on the same day. The undersigned related the instant action to this Court the

10

next day. A June 17 ordered denied plaintiffs motion for a temporary restraining order on the

11

grounds that he raised essentially the same arguments as he did in Freitas III and that he was

12

unlikely to suffer irreparable harm as the foreclosure had already occurred (Dkt. Nos. 1,2,10,

©

«

•—I

<J

13

14). Bank of America now moves to dismiss the entire complaint. Plaintiff opposes. This

•S3 |
© |

14

order follows full briefing and oral argument.

U i

£'s
a

ANALYSIS

«E

15

*
73 ?

16

A complaint must plead “enough facts to state a claim to relief that is plausible on its

17

face.” BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). A claim has facial plausibility

18

when its factual allegations, rather than mere conclusory statements, create the reasonable,

19

inference that the defendant is liable for the misconduct alleged. Ashcroft v. Iqbal, 556 U.S.

20

662, 678 (2009). In ruling on a motion to dismiss, we must accept factual allegations in the

21

complaint as true and construe the pleadings in the light most favorable to the nonmoving party.

22

Manzarekv. St. Paul Fire & Marine Ins. Co., 519 F.3d 1025, 1030-31 (9th Cir. 2008).

23

Conclusory allegations or “formulaic recitation of the elements” of a claim, however, are not

24

entitled to the presumption of truth. Iqbal, 556 U.S. at 681.

flj

t3 |o
fli

a
&

o

Res Judicata.

25

1.

26

Res judicata prohibits successive litigation of claims that have already been litigated as

.27...

well as .those that could have been litigated based on the same operative facts. 21A Fed. Proc.,

28

L. Ed. § 51:227. The doctrine of res judicata is applicable when there is (1) privity between
3

Case 3:19-cv-03347-WHA Document 51 Filed 11/11/19 Page 4 of 6

1

parties, (2)an identity of claims, and (3) a final judgment on the merits. Owens v. Kaiser

2

Found. Health Plan, Inc., 244 F.3d 708, 713 (9th Cir.2001). As a general matter, under the Full

3

Faith and Credit Act, federal courts must give state judicial proceedings “the same full faith and

4

credit... as they have by law or usage in the courts of [the] State ... from which they are

5

taken.” 28 U.S.C. § 1738. Here, res judicata precludes plaintiffs claims in the instant suit.

6
7
8

First, here, there is no question as to the privity of the parties as Bank of America has
been a party to all of the aforementioned actions.
Second, plaintiff makes essentially the same underlying allegations as he did in all of his

9

preceding lawsuits. Plaintiff contends this action addresses different actions and claims. He

10

has not, however, added new or different facts than those that he made in any of the previous

11

proceedings. Specifically plaintiffs underlying argument throughout has been that his October

5|

12

25 deed of trust was forged and that the reconveyance of the October 5 deed of trust relieved

•r °

13

him of any duty to make payments and accordingly made the foreclosure proceedings unlawful.

®I
0J E
«I
% &

14

Although plaintiff makes additional claims under federal law here, he is merely rephrasing the

15

same general grievances.

s

h o
.S3 |
Cfl

c

"rt &
a o

U*

a
&

16

Third, final judgments on the merits have occurred. In California, a state court’s order

17

sustaining a general demurrer constitutes a final judgment on the merits. See McKinney v. Cnty.

18

of Santa Clara, 110 Cal.App.3d 787, 794 (1980) (holding “[a] judgment on a general demurrer

19

will have a preclusive effect on a new action in which the complaint states the same facts which

20

were held not to constitute a cause of action on the former demurrer”). In both Freitas I and

21

Freitas II, the state court sustained Bank of America’s demurrer without leave to amend.

22

Plaintiff argues that various mistakes were made in these state court proceedings, but that does

23

not change the fact that final judgments on the merits have occurred. Any mistakes by the state

24

court judge were subject to correction by way of appeal via the state appellate court.

25
26

2.

Request for Judicial Notice.

Federal Rule of Evidence 201(b) permits courts to take judicial notice of any fact “that is

27

not subject to reasonable dispute because it. .. can be accurately and readily determined from

28

sources whose accuracy cannot reasonably be questioned.” While a court may take judicial
4

Case 3:19-cv-03347-WHA Document 51 Filed 11/11/19 Page 5 of 6

1

notice of matters of public record at the motion to dismiss stage, it cannot take judicial notice of

2

disputed facts in the public record. Khoja v. Orexigen Therapeutics, Inc., 899 F.3d 988, 999

3

(9th Cir. 2018).

4

Bank of America requests judicial notice of the following documents: (1) the first

5

amended complaint in Freitas I, (2) An April 2016 order sustaining the demurrer in Freitas I,

6

(3) the entry of judgment in Freitas I, (4) the notice of appeal in Freitas I, (5) the California

7

Court of Appeal’s May 2017 opinion in Freitas v. Bank of America, N.A., No A148140, (6) the

8

California Supreme Court’s August 2017 order denying plaintiffs petition for review, (7) the

9

California Court of Appeal’s remittitur issued August 2017, (8) the first amended complaint in

10

Freitas II, (9) the June 2018 notice of entry of order in Freitas II, and (10) the notice of entry

11

fo judgment in Freitas II. Plaintiff disputes the truthfulness of these documents, but they are

12

nonetheless appropriate subjects of judicial notice. Defendant’s request is accordingly

T u
b ‘S

■«

13

Granted.

.22 |

O |

14

3
O

«

U E

-w :§
cj

&J

B

« €
+* ©

-o
*
<U o

U-<

fl

Plaintiff requests judicial notice of the following documents: (1) the California Court of

15

Appeal’s May 2017 opinion in Freitas v. Bank of America, N.A., No A148140; (2) the deed of

16

trust and assignment of rents recorded October 12, 2005, (3) the substitution of trustee and

17

reconveyance recorded July 1, 2016, (4) the deed of trust and assignment of rents recorded

18

October 25, 2005, (5) the substitution of trustee and reconveyance recorded November 10,

19

2005, (6) the notice of trustee’s sale recorded March 7, 2019, (7) the substitution of trustee

20

recorded April 22, 2014, (8) the trustee’s deed upon sale recorded June 11, 2019, (9) the deed of

21

reconveyance recorded April 8,2004, (10) Schedule D of creditors holding secured claims, (11)

22

the bankruptcy court discharge of debtor and final decree dated October 14, 2015. The first

23

item is judicially noticed. It is unclear where Schedule D comes from and is thus a document

24

whose accuracy may reasonably be questioned. Judicial notice of Schedule D is thus Denied.

25

The remaining items are appropriate for judicial notice and plaintiffs request is Granted.

i

26
27
28
5

Case 3:19-CV-03347-WHA Document 51 Filed 11/11/19 Page 6 of 6

CONCLUSION

1
2

The motion to dismiss is Granted. Any leave to amend would be futile. The case is

3

DISMISSED WITH PREJUDICE and the Clerk shall CLOSE the file. Plaintiff should file any notice

4

of appeal timely.

5
6
7

IT IS SO ORDERED.

P(
WIL Mam Alsup

Dated: November 11, 2019.

United States District Judge

8
9
10
11

u
a

<3 I

12

S3

•r*

s* U<~
.22 |

«I
Cfl

O
.>

c

E
«

13
14
15

o

16
■o ~
V

c
&

o

17
18
19
20
21
22
23
24
25
26
27
28
6

CAND-ECF

https://ecf.cand.circ9.dcn/cgi-bin/Dispatch.pI77503133387444:

Service of Process:
3:19-CV-03347-WHA Freitas v.
Bank Of America CASE. - .
CLOSED on 11/11/2019
ADRMOP.CLOSED.ProSe
U.S. District Court
California Northern District
Notice of Electronic Filing
The following transaction was entered on 11/12/2019 at 11:17 AM PST and filed on 11/12/2019
Case Name:
Freitas v. Bank Of America
Case Number:
3:19-cv-03347-WHA
Filer:
WARNING: CASE CLOSED on 11/11/2019
Document Number: 52(No document attached)
Docket Text:
CERTIFICATE OF SERVICE re [51] Order on Motion to Disqualify Counsel, Order on
Motion to Dismiss: The deputy clerk hereby certifies that on 11/12/2019, a copy of this
order was served by sending it via first-class mail to the address of each non-CM/ECF
user listed on the Notice of Electronic Filing. This is a text only docket entry. There is no
document associated with this entry. (tlhS, COURT STAFF) (Filed on 11/12/2019)
3:19-cv-03347-WHA Notice has been electronically mailed to:
Joel C. Spann

jcs@severson.com, mat@severson.com

3:19-cv-03347-WHA Please see Local Rule 5-5: Notice has NOT been electronically mailed to:
John B. Freitas
36937 Cherry Street
Newark, CA 94560

1 of?.

1 1 /10/001Q

1 1 ■ 1 *7 A\/1

John B. Freitas
36937 Cherry Street
Newark, CA 94560

19-CV-03347-WHA

fl i CUUit)

r

A/C? I/' f >

f -

?

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX C
COURT OF APPEAL OF THE STATE OF CALIFORNIA OPINION

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

Filed 5/30/17
NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for publication or
purposes of rule 8:iVI5Pt 85 spectfied y rule 81115(b)' Thls °P'nion has not been 06 ied for pubiioation or orders published for

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT

r

DIVISION FIVE

fL't r

Li

:

r

f

{

JOHNB. FREITAS,

f

I

Plaintiff and Appellant,

!W 30 201/
i_* .

V.

*-

A148140

BANK OF AMERICA, N.A.,
(Alameda County
Super. Ct. No. RG15792569)

Defendant and Respondent.

John Freitas, proceeding in propria persona, attempts to challenge a judgment
dismissing, with prejudice, his first amended complaint (FAC) against Bank of America,
N.A. Freitas contends the trial court erred in sustaining Bank of America’s demurrer
without leave to amend. On the record before us, we must affirm
I.

Factual and Procedural Background

The material facts in this appeal would normally be derived from the allegations of
Freitas’s FAC and matters we may judicially notice. (Evans v. City ofBerkeley (2006)
38 Cal.4th 1,6.) However, as discussed post, our ability to set forth those material facts
is limited by the fact the record Freitas provides does not contain his complaint or FAC,
Bank of America’s demurrer to the FAC, Freitas’s opposition, or the trial court’s ruling
on the demurrer. From the record before us, we can discern only that Bank of America
demurred to Freitas’s FAC and the trial court sustained the demurrer without leave to
amend. On April 28, 2016, the trial court entered judgment against Freitas. Thejudgment states: “the [FAC] is dismissed with prejudice in its entirety as to all causes of

1

I

;

actionT-Freitasshall4ak^-notjbiiHg-7^from^aflk'0f-Americar,-Freitasfiied'a-timely
notice of appeal.
II.

Discussion

Freitas contends the trial court erred in sustaining Bank of America’s demurrer to
his FAC. “On appeal from an order of dismissal after an order sustaining a demurrer, the
standard of review is de novo: we exercise our independent judgment about whether the
complaint states a cause of action as a matter of law. [Citation.] First, we give the
complaint a reasonable interpretation, reading it as a whole and its parts in their context.
Next, we treat the demurrer as admitting all material facts properly pleaded. Then we
determine whether the complaint states facts sufficient to constitute a cause of action.
[Citations.] [fj We do not, however, assume the truth of contentions, deductions, or
conclusions of law.” (Steam v. County ofSan Bernardino (2009) 170 Cal.App.4th 434,
439-440.) We are “not bound by the trial court’s construction of the complaint.”
(Wilnerv. Sunset Life Ins. Co. (2000) 78 Cal.App.4th 952, 958.) Rather, we
independently evaluate the complaint, construing it liberally. (Ibid.; Blank v. Kirwan
(1985)39 Cal.3d 311, 318.)
We begin by reiterating settled rules of appellate review, often unfamiliar to pro se
litigants.

A judgment or order of the lower court is presumed correct. All intendments

and presumptions are indulged to support it on matters as to which the record is silent,
and error must be affirmatively shown... This is not only a general principle of appellate
practice but an ingredient of the constitutional doctrine of reversible error.

3 33

(Denham v.

Superior Court (1970) 2 Cal.3d 557, 564.) The appellant has the burden of
demonstrating error on the part of the trial court. (People v. Giordano (2007) 42 Cal.4th
644, 666 [

error must be affirmatively shown

>3 3 3?

]; Ketchum v. Moses (2001)

24 Cal.4th 1122, 1140-1141.) In the procedural posture of the instant appeal, “[the
appellant] has the burden to show either that the demurrer was sustained erroneously or
that the court abused its discretion in sustaining the demurrer without leave to amend.”
(Pinnacle Holdings, Inc.-v.-Simon (:\995)-3l-C;ei\iAppAxh-lA'i0p\A'iAi)--------------------

2

Bank of America contends that Freitas has failedto meet his burden to provide an
appellate record showing error. We agree. “The party seeking to challenge an order on
appeal has the burden to provide an adequate record to assess error. [Citation.] Where
the party fails to furnish an adequate record of the challenged proceedings, his claim on
appeal must be resolved against him.” (Rancho Santa Fe Assn. v. Dolan-King (2004)
115 Cal.App.4th 28, 46.) “ ‘In the absence of a contrary showing in the record, all
presumptions in favor of the trial court’s action will be made by the appellate court.

y yy

(jFoust v. San Jose Construction Co., Inc. (2011) 198 Cal.App.4th 181, 187.) “ ‘A
necessary corollary to this rule is that if the record is inadequate for meaningful review,
the appellant defaults and the decision of the trial court should be affirmed.

? 33

(Gee v.

American Realty & Construction, Inc. (2002) 99 Cal.App.4th 1412, 1416.) Freitas is not
exempt from these rules because he represents himself on appeal. (Nwosu v. Uba (2004)
122 Cal.App.4th 1229, 1246; McComberv. Wells (1999) 72 Cal.App.4th 512, 522-523.)
£( C «

When a litigant is appearing in propria persona, he is entitled to the same, but no

greater, consideration than other litigants and attorneys [citations]. Further, the in propria
persona litigant is held to the same restrictive rules of procedure as an attorney.

33 3 33

(Burnete v. La Casa Dana Apartments (2007) 148 Cal.App.4th 1262, 1267.)
Here, Freitas elected to proceed by way of a clerk’s transcript without any record
of the oral proceedings.1 With respect to the requested clerk’s transcript, on pages 2 and
3 of his notice designating record on appeal, Freitas failed to “identify each designated

1 Freitas’s notice designating the record on appeal is ambiguous. Despite the
form’s instructions to elect “the ... method of providing the Court of Appeal with a
record of the documents filed in the superior court (check a, b, c, d, or e ...),” Freitas
selected multiple methods—a (clerk’s transcript), b (appendix), and c (original superior
court file). Only a clerk’s transcript was ever filed. This was not an error of the superior
court clerk. Despite the requirement found in California Rules of Court, rule 8.128(a)(2),
Freitas did not attach a stipulation to use the original superior court file to Freitas’s
notice. Apparently, such a stipulation was never reached. Ereitas also-did not-file an
appendix with his opening brief. (See id., rule 8.124(e)(2) [“an appellant’s appendix
must be served and filed •with the appellant’s opening brief’].)
3

document by its title and filing date.” (Cal._Rules.of Court, rule 8.122(a)(1).) In addition
to the required documents automatically included in every clerk’s transcript, Freitas
designated only his “Reply In Support of Plaintiffs Opposition to Defendant, Bank of
America’s Demurrer to Plaintiffs First Amended Complaint,” which was filed on
April 4,2016. Thus, our official record consists of the register of actions, Freitas’s sur
reply, the notice of appeal, the notice designating record on appeal, the judgment, and the
notice of entry ofjudgment.2 As we have noted, the clerk’s transcript does not contain
Bank of America’s demurrer or the trial court’s order sustaining Bank of America’s
demurrer to the FAC. Accordingly, we do not know the basis for the trial court’s
demurrer ruling. Most troubling, however, is that the clerk’s transcript does not include
Freitas’s FAC. Thus, we simply have no way of independently determining if Freitas
alleged facts stating a cause of action.
As Bank of America correctly points out, Freitas did not seek to augment the
record in a timely manner after the clerk’s transcript was filed. (Cal. Rules of Court,
rule 8.155(a)(1).) Instead, Freitas waited 76 days and only then sought to augment the
clerk’s transcript to include his FAC, complaint, as well as the demurrer and opposition
papers. By that time, both Freitas’s opening brief and the respondent’s brief had been
filed,3 and he presented no excuse for the late filing other than his ignorance of the

2 Freitas attaches to his opening brief what appear to be copies of two substitutions
of trustee and a notice of default. While a party may attach as exhibits copies of
“materials in the appellate record,” these documents do not appear in the record and we
may not consider them. (See Cal Rules of Court, Rule 8.204(d), italics added.)
3 Freitas’s opening brief does not provide any citations to the record properly
before us. The appellant “must present meaningful legal analysis supported by citations
to authority and citations to facts in the record that support the claim of error.” {In re
S.C. (2006) 138 Cal.App.4th 396, 408, italics added; accord, Cal. Rules of Court, rule
8.204(a)(1)(C); Lona v. Citibank, N.A. (2011) 202 Cal.App.4th 89, 96-97, fii. 2 [“[e]ach
and every statement in a brief regarding matters that are in the record on appeal, whether
factual or procedural, must be supported by a citation to the record”].) Even if we had an
-adequate record, it would not be our responsibility'to search through it seeking evidence
in support of Freitas’s position. {Williams v. Williams (1971) 14 Cal.App.3d 560, 565.)
4

governing rules. We denied the motion to augment on the grounds it was untimely.
(People v. Preslie (1977) 70 Cal.App.3d 486, 492 [“requests for augmentation made after
a reasonable time has expired from receiving the record on appeal... will be denied
absent a strong showing of unusual or unavoidable circumstances giving rise to the
delay”]; Ct. App., First Dist, Local Rules, rule 7(b), Augmentation of record
[ [ajppellant should file requests for augmentatiion. . . within 30 days of the filing of the
record ].) After waiting another 23 days, Freitas sought another avenue to augment the
record by filing a request for judicial notice, which we also denied as Untimely. {Preslie,
at p. 494 [“in the mterest of orderly judicial procedure[,]” requests for judicial notice
should “be made well before” briefs are filed].)
More recently, on March 30,2017, Freitas filed a motion requesting the superior
court clerk be ordered to pay sanctions for failing “to follow [Freitas’s] written
instructions” in his notice designating record on appeal. We deny Freitas’s motion for
sanctions. It is clear the deficiencies in the record resulted from Freitas’s failure to heed
the requirements of court mles in designating the record on appeal, not any misstep by
the superior court clerk.
Freitas failed to furnish an adequate record. Without the operative complaint and
the party pleadings on demurrer, it is simply impossible to determin
e if the trial court
erred in granting the demurrer. Accordingly, we cannot address the merits and the
judgment must be affirmed. {Maria P. v. Riles (1987) 43 Cal.3d 1281, 1295-1296;
Ballard v. Uribe {1986) 41 Cal.3 d 564, 574 575, Foust v. San Jose Construction Co.,
Inc., supra, 198 Cal.App.4th atp. 187.)
III.

Disposition

The judgment is affirmed. Bank of America shall recover its costs on appeal.

BRUINIERS, J.
WE CONCUR:

SIMONS, Acting P. J.

NEEDHAM, J.

A148140
6

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX D
RELEVANT CONSTITUTIONAL & STATUTORY PROVISIONS

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

1 ■

Petitioner’s Appendix: D
FEDERAL STATUTES, RULES, REGS & CONSTITUTIONAL
PROVISIONS

1.

United States Constitution, Fourteenth Amendment, § 1: “Due Process”
clause and the “equal protection of the law” which specify:
“No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any state deprive
any person of life, liberty, property and the pursuit of happiness without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the law.”
According to then Hon. Amy Coney Barrett, prior to being appointed the
newest Justice of the U.S. Supreme Court, ruled that.....due process rights
come into play “if the other side” uses dishonorable means to prosecute a
case. Rainsberger v. Benner, 7th app.cir.no. 17 - 2521-Jan. 15, 2019 (Applies
to Civil and criminal cases). See also U.S. Supreme Court case McDonough
v. Smith, U.S. sup.ct.no. 18-485. June 20, 2019.

2.
United States Constitution - Fourteenth Amendment, § 3:
(Abridged version)No person having previously taken an oath as ....
a judicial officer of any state shall have engaged in insurrection or rebellion
against”... “the Constitution of the United States”,... “or given aid or
comfort to the enemies thereof’.

(Unabridged Version)- (with emphasis added)-

“No Person shall be a Senator or Representative in Congress, or elector of
President and Vice-President, or hold any office, civil or military, under the
United States, or under any State„ who, having previously taken an oath, as a
member of Congress, or as an officer of the United States, or as a member of
any State legislature, or as an executive or judicial officer of any State. to
support the Constitution of the United States, shall have engaged in
insurrection or rebellion against the same, or given aid or comfort to the
enemies thereof.”
(Emphasis Added)
3.

Title 18 of the (“U.S.C.”) §§ 1961- 1968 of the Racketeer Influenced

and Corrupt Organizations Act (“RICO”) (Appears in Petition @ page(s) 17,
18,25).
The elements of a RICO violation of 18 U.S.C. §1962 are as follows:
a. “conduct
b. of an enterprise;
c. through a pattern;
d. of racketeering activity (known as “predicate acts”);
e. causing injury to” ....Petitioner/Freitas.
4.

Title 18 of the United States Code (“U.S.C.”) § 1346,
Appears in Petition @ page(s) 25).
“Honest Services Fraud” which states:
“...the term, scheme or artifice to defraud
includes a scheme or artifice to deprive another of the intangible
right of honest services.” “Honest Services Fraud” is a valid
Federal Claim against Corrupt Government Officials.

5.

Misprision of Felony (18 U.S.C § 4 & § 8.0A) & Title 18 U.S.C. § 241
Conspiracy against rights of citizens. (Appears in Petition @ page(s) 17,

25).
“If two or more persons conspire to injure, oppress, threaten, or intimidate
any person in any State, Territory, Commonwealth, Possession, or District in the
free exercise or enjoyment of any right or privilege secured to him by the
Constitution or laws of the United States, or because of his having so exercised the
same; or

If two or more persons go in disguise on the highway, or on the premises of
-another, with intent to prevent or hinder his free exercise or enjoyment of any right
or privilege so secured—
They shall be fined under this title or imprisoned not more than ten years, or both;
and if death results from the acts committed in violation of this section or if such
acts include kidnapping or an attempt to kidnap, aggravated sexual abuse or an
attempt to commit aggravated sexual abuse, or an attempt to kill, they shall be
fined under this title or imprisoned for any term of years or for life, or both, or may
be sentenced to death.”
6.
Title 42 U.S.C § 1983. Fabrication of Evidence (including documents
filed with the Court and County Recorders. (Appears in Petition @ page(s) 16,
17,25).
Title 42, Section 1983 United States Code, provides:
"Every person who, under color of any statute, ordinance, regulation, custom or
usage, of any State or Territory, subjects, or causes to be subjected, *109 any
citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and
laws, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress."
7.

Title 28 U.S.C. Section 1738; the Full faith and credit statute.
(Appears in Petition @ page(s) 17).

28 U.S. Code § 1738 - State and Territorial statutes and judicial proceedings; full
faith and credit.
“The Acts of the legislature of any State, Territory, or Possession of the United
States, or copies thereof, shall be authenticated by affixing the seal of such State,
Territory or Possession thereto.
The records and judicial proceedings of any court of any such State, Territory or
Possession, or copies thereof, shall be proved or admitted in other courts within the
United States and its Territories and Possessions by the attestation of the clerk and
seal of the court annexed, if a seal exists, together with a certificate of a judge of
the court that the said attestation is in proper form.
Such Acts, records and judicial proceedings or copies thereof, so authenticated,
shall have the same full faith and credit in every court within the United States and

its Territories and Possessions as they have by law or usage in the courts of such
StaterTerritoryorPossession'from whicfrthey'aretaken:”
8.

Title 42 U.S.C. § 1986. Actions for neglect to prevent conspiracy
(Appears in Petition @ page(s) 17, 25).

42 U.S.C. § 1986
Current through P.L. 116-344 (published on www.congress.gov on 01/13/2021),
except for P. Ls. 116-260 and 116-283
“Section 1986 - Action for neglect to prevent
Every person who, having knowledge that any of the wrongs conspired to be done,
and mentioned in section 1985 of this title, are about to be committed, and having
power to prevent or aid in preventing the commission of the same, neglects or
refuses so to do, if such wrongful act be committed, shall be liable to the party
injured, or his legal representatives, for all damages caused by such wrongful act,
which such person by reasonable diligence could have prevented; and such
damages may be recovered in an action on the case; and any number of persons
guilty of such wrongful neglect or refusal may be joined as defendants in the
action; and if the death of any party be caused by any such wrongful act and
neglect, the legal representatives of the deceased shall have such action therefor,
and may recover not exceeding $5,000 damages therein, for the benefit of the
widow of the deceased, if there be one, and if there be no widow, then for the
benefit of the next of kin of the deceased. But no action under the provisions of this
section shall be sustained which is not commenced within one year after the cause
of action has accrued.
42 U.S.C. §1986"
42 U.S.C. § 1985
Section 1985 - Conspiracy to interfere with civil rights(l) Preventing officer from
performing duties
If two or more persons in any State or Territory conspire to prevent, by force,
intimidation, or threat, any person from accepting or holding any office, trust, or
place of confidence under the United States, or from discharging any duties
thereof; or to induce by like means any officer of the United States to leave any
State, district,-or-place,-where-his-duties as-an-officer-are-required-to-be^)erfbrmedr

or to injure him in his person or property on account of his lawful discharge of the
duties of his office, or while engaged in the lawful discharge thereof, or to injure””
his property so as to molest, interrupt, hinder, or impede him in the discharge of his
official duties;
(2) Obstructing justice; intimidating party, witness, or juror
If two or more persons in any State or Territory conspire to deter, by force,
intimidation, or threat, any party or witness in any court of the United States from
attending such court, or from testifying to any matter pending therein, freely, fully,
and truthfully, or to injure such party or witness in his person or property on
account of his having so attended or testified, or to influence the verdict,
presentment, or indictment of any grand or petit juror in any such court, or to injure
such juror in his person or property on account of any verdict, presentment, or
indictment lawfully assented to by him, or of his being or having been such juror;
or if two or more persons conspire for the purpose of impeding, hindering,
obstructing, or defeating, in any manner, the due course of justice in any State or
Territory, with intent to deny to any citizen the equal protection of the laws, or to
injure him or his property for lawfully enforcing, or attempting to enforce, the right
of any person, or class of persons, to the equal protection of the laws;
(3) Depriving persons of rights or privileges
If two or more persons in any State or Territory conspire or go in disguise on the
highway or on the premises of another, for the purpose of depriving, either directly
or indirectly, any person or class of persons of the equal protection of the laws, or
of equal privileges and immunities under the laws; or for the purpose of preventing
or hindering the constituted authorities of any State or Territoiy from giving or
securing to all persons within such State or Territory the equal protection of the
laws; or if two or more persons conspire to prevent by force, intimidation, or
threat, any citizen who is lawfully entitled to vote, from giving his support or
advocacy in a legal manner, toward or in favor of the election of any lawfully
qualified person as an elector for President or Vice President, or as a Member of
Congress of the United States; or to injure any citizen in person or property on
account of such support or advocacy; in any case of conspiracy set forth in this
section, if one or more persons engaged therein do, or cause to be done, any act in
furtherance of the object of such conspiracy, whereby another is injured in his
person or property, or deprived of having and exercising any right or privilege of a
citizen of the United States, the party so injured or deprived may have an action for
the recovery of damages occasioned by such injury or deprivation, against any one
or more of the conspirators.

42 U.S.C. § 1985
9. Federal Rules of Civil Procedure - Rule 12(b) (6) .. .(Appears in Petition @
page(s) 38).
“Rule 12. Defenses and Objections: When and How Presented; Motion for
Judgment on the Pleadings; Consolidating Motions; Waiving Defenses; Pretrial
Hearing
Primary tabs
(a) Time to Serve a Responsive Pleading.
(b) HOW TO PRESENT DEFENSES. Every defense to a claim for relief in any pleading
must be asserted in the responsive pleading if one is required. But a party may
assert the following defenses by motion:
(6) failure to state a claim upon which relief can be granted;”
10.

The Rule of Law (Appears in Petition @ page 25)

DICTIONARY.COM UNABRIDGED BASED ON THE RANDOM HOUSE
UNABRIDGED DICTIONARY, © RANDOM HOUSE, INC. 2021
What is the rule of lawl
The rule of law refers to the idea that everyone in a society agrees to be governed
by and follow the laws of a society.
Why is the rule of law important in a democracy?
The idea of rule of law goes all the way back to ancient Greece, and to the work of
the philosopher Aristotle. Aristotle’s Politics explores the best method to rule a
society. He asks: “Is a good leader more important, or are good laws more
unimportant?”
important ?
His answer? The best way to rule a society is through very good laws. But for laws
to work justly, they have to apply to everyone equally.

The idea of rule of law is that once the laws are made, everyone should follow
them, both the citizens of the country and the government oFthe country. Powerful
people shouldn’t get a pass just because they have a lot of money or social status.
And government officials shouldn’t be able to be above the law just because they
created the laws.
This is quite important because it means that the government can’t do whatever it
wants. It has to follow the rules that have been set. If the absolute law of the nation
says “all leaders have to be elected,” the current leader cannot legally declare that
their own child will inherit the leadership when they die. Nepotism is a big no-no
in this rule of law.
The rule of law, therefore, makes sure governments and people act in accordance
with the laws. Governments that operate under the rule of law are different than,
for example, the absolute monarchies that ruled over medieval Europe, where the
king or queen were not always subject to the laws of the land. That’s why an event
like King John’s signing of the Magna Carta in 1215 was a big deal (even though it
was signed under duress and soon taken back—that’s a story for a different day). It
was a big deal because the Magna Carta was a document that, among other things,
bound the king to obey the rules too.
In the United States, the Constitution is an important part of the rule of law,
because the Constitution is considered the fundamental law of the nation. So if
there’s a conflict between the principles of the Constitution and rules that exist
apart from the Constitution, the United States Courts are supposed to uphold the
Constitution above all other rules. The rule of law in the United States is in a large
part determined by what the Constitution says. (Of course, there’s the additional
complication of how we should interpret the Constitution, since it’s relatively
brief.)”
11.

Code of Judicial Conduct
(Appears in Petition @ page(s) 15, 16, 18 and 26).
Guide to Judiciary Policy Vol. 2: Ethics and Judicial Conduct Pt. A:

Codes of Conduct Ch. 2: Code of Conduct for United States Judges
Introduction
Canon 1: A Judge Should Uphold the Integrity and Independence of the Judiciary
Canon 2: A Judge Should Avoid Impropriety and the Appearance of Impropriety in
All Activities

Canon 3: A Judge Should Perform the Duties of the Office Fairly, Impartially and
Diligently
'
Canon 4: A Judge May Engage in Extrajudicial Activities That Are Consistent
With the Obligations of Judicial Office
Canon 5: A Judge Should Refrain From Political Activity Compliance with the
Code of Conduct

12.

Oath of Office of a Federal Judge( Appears in Petition @ Page 18).

Oaths of justices and judges - 28 U.S.C. § 453 (2013)
§453. Oaths of justices and judges
Each justice or judge of the United States shall take the following oath or
affirmation before performing the duties of his office:
XXX, do solemnly swear (or affirm) that I will administer justice
"I,
without respect to persons, and do equal right to the poor and to the rich, and that I
will faithfully and impartially discharge and perform all the duties incumbent upon
me as
under the Constitution and laws of the United States. So help me
God."

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX E
CERTIFIED COURT REPORTER’S “TRANSCRIPT OF PROCEEDINGS”

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

Pages 1-20
UNITED - STATES --D-I-STR-ICT COURTNORTHERN DISTRICT OF CALIFORNIA
Before The Honorable William H. Alsup, Judge
JOHN B. FREITAS,
Plaintiff,
VS.
BANK OF AMERICA, N.A.

)
)
)
)
)
)
)
)

NO. C 19-CV-03347 WHA

Defendant.
)

San Francisco, California
Wednesday, November 6, 2019
TRANSCRIPT OF PROCEEDINGS
APPEARANCES:
For Plaintiff:

BY:

36937 Cherry Street
Newark, California 94560
JOHN B. FREITAS, PRO SE

BY:

SEVERSON & WERSON
One Embarcadero Center - Suite 2600
San Francisco, California 94111
JOEL C. SPANN, ATTORNEY AT LAW

For Defendant:

Reported By:

Marla F. Knox, RPR, CRR
-Of-f-i-c-i-ai—Reporter--------- -

2

1

8:02 a.m.

Wednesday - November 6, 2019

2

P R O C E E D I N G S

3

--000-THE CLERK:

4
5
6
7

Calling Civil Action 19-3347, Freitas

versus Bank of America.
Plaintiff and Counsel, please step forward and state your
appearances for the record.

8

THE COURT:

Good morning.

9

MR. SPANN:

Joel Spann for Bank of America.

10

THE COURT:

Thank you and --

11

MR. FREITAS:

12

THE COURT:

This is a Motion To Dismiss.

MR. SPANN:

I believe our Motion sets forth pretty

13
14

John Freitas.

ahead.

15

much all the grounds to dismiss this case.

16

already got to --

17
18
19
20

THE COURT:

Mr. Freitas has

You have to speak more clearly and into

the microphone, please.
MR. SPANN:

Sorry, Your Honor.

I believe our Motion To Dismiss already sets forth all the
Mr. Freitas has already tried to

21

grounds to dismiss this case.

22

pursue these claims three times before.

23

rendered meritless.

24

this time around.

-2-5

Please go

They have already been

I don't see how it would be any different

—THE—COURT:—Al 1 -right-:—Your-turn-;—Mr:—FrextasT

3

1

MR. FREITAS:

2

THE COURT:

3

MR. FREITAS:

Good morning, Your Honor.
Good morning.
May it please the Court.

Plaintiff's

4

constitutional rights to due process are not pre-empted by the

5

doctrine of res judicata and collateral estoppel.

6

However, the doctrine of res judicata must conform to the

7

mandate of due process of law; that no person be deprived of

8.

personal or property rights by the judgment without notice and

9

an opportunity to be heard.

10

Bernhard versus Bank of America.

Res judicata does not apply to this case.

The prior cases

11

were dismissed on procedural issues, not on the merits of the

12

case.

13

Plaintiff's current First Amended Complaint makes claims

14

based on events that occurred and damages that were incurred

15

after the prior complaints had been dismissed.

16

Plaintiff's current First Amended Complaint were not litigated

17

in the prior Complaint.

18

apply where Plaintiff was unable to rely on a theory or to seek

19

a remedy because damages occurred after that judication.

20

Branson versus Sun-Diamond Growers.

21

The issues in

The doctrine of res judicata does not

In Plaintiff's earlier cases, the First Appellate

22

District, Division Five, ruling issued on May 30th, 2017

23

page 5 six lines from the bottom.

24

the Plaintiff's request for judicial notice -- specifies that

25

the merits were not addressed which refutes Defendant B of A's

at

See Exhibit A asterisk of

4

1

Motion To Dismiss.

2

Plaintiff will prove injuries that were cost --

3
4

THE COURT:

Hang on a second.

MR. SPANN:

I believe he is referring to procedural

says?

5
6

dismissal of his appeal.

7

adjudicated in the lower courts.

8

grounds.

9
10

Is that correct what it

THE COURT:

The merits of his case were already

Go ahead.

That is all substantive

Is that true, Mr. Freitas, that

the merits were adjudicated in the lower courts?

11

MR. FREITAS:

12

THE COURT:

13

MR. FREITAS:

No, sir.
Well, what is your view?
They were dismissed on procedural

14

issues, not on the merits.

15

the lower courts or by the Court of Appeal.

16

Appeal addressed it; that the merits were never addressed.

17

the injuries therein occurred after the cases were dismissed.

18
19

THE COURT:

The merits were never addressed by
And the Court of

Well, how did it get dismissed then in the

lower courts?

20

MR. FREITAS:

21

THE COURT:

I'm sorry?
There have been so many of your lawsuits.

22

Pick one of them that -- and tell me how it got dismissed in

23

the lower court.

24
25

And

MR. FREITAS:
with Judge Gee.'

For example, we can pick the first one

He claimed

he stated that I_ had. not denied

5

1

that it was my signature on the -- on the date of trust of

2

.October .25, 2005

3

the page 12, line 18, that it was not my signature.

4

he -- and we had pointed out to the Judge.

5

don't care.

6

That is not true because I clearly stated on ...
But yet

And he says:

I

Even so it was right there in writing.

THE COURT:

Well, that sounds like he made a ruling on

7

the merits even if he -- let's say he was incorrect, but he

8

nevertheless made a ruling on the merits.

9

goes up on appeal.

And then that case

And for some reason you were unable to

10

explain to the Court of Appeal how come he made a mistake.

11

That's still on the merits.

12

MR. FREITAS:

I did explain to the Court and the Court

13

of Appeal.

14

superior court to the Court of Appeal conveniently even so

15

we

16

None of the documents were transferred from the

THE COURT:

They almost never.

What makes you think

17

they should be?

18

copies to the Court of Appeal, what they need to see.

It is your job as the Appellant to provide the

19

MR. FREITAS:

20

THE COURT:

21

MR. FREITAS:

We did, Your Honor.

We also

Then the records were there.
We filed a number of motions to have the

22

documents transferred even so we had already filed, and they

23

were not transferred.

24

THE COURT:

.2.5.

MR.._FREITAS.:.

So what?

Why does that --

T.he Co.ur.t o.f App.eal

6

1
2

THE COURT:

Why does that undo a ruling on the merits

even if it was erroneously entered?

3

MR. FREITAS:

Because the Court of Appeal clearly

4

stated that they had no documentation in order to look for

5

it

6

court's decision.

7

the merits and that the merits were not addressed, period.

8
9
10

in order to be able to rule even so it affirmed the lower
It clearly stated that it did not address

And the case before this Court, the causes of action are
not the same.

The injuries have occurred since then.

THE COURT*

Counsel is saying that the appeal was

11

dismissed because you goofed up on some procedural thing on

12

appeal, and so they dismissed your appeal for that reason.

13

I understand you correctly, Counsel?

14

MR. SPANN:

That's correct, Your Honor.

15

THE COURT:

All right.

Did

So if you goofed up the

16

appeal; and they didn't address the merits but they dismissed

17

your appeal on a procedural ground, that doesn't alter the fact

18

that the lower court ruled on the merits.

19

MR. FREITAS*

They did not, Your Honor.

I never had

20

the opportunity to present the merits to a jury in a trial of

21

fact, which I required and requested from the first case.

22

judges did not -- I never had the opportunity to present the

23

facts of the case to any judge.

24

things stated, but there were never -- the merits of the case

25

were never presented to a judge.

The

There were a couple minor

7

1
2
3

THE COURT*
resolved on motions.
MR. FREITAS:

Most cases never get to a jury.

They are

So what is so unusual about that?
Well, the unusual is that this case is

4

not like any other case throughout this nation.

5

searched thousands and thousands of cases.

I have

6

This is a line of credit that was established for an

7

emergency cases; that no money was ever withdrawn from it; that

8

no money was ever transferred on behalf of Plaintiff to the

9

benefit of Plaintiff.

And B of A has no admissible evidence

10

that any money was ever withdrawn.

11

altered a deed of trust and they have foreclosed on a deed of

12

trust that the debt had already been paid off.

13

It has

And even so, they have

the October 12th, 2005, was the deed of trust in

14

which I established.

15

it was closed -- without my knowledge or my authorization --

16

and recorded a deed of trust on

17

October 25th, 2005, as if it were another deed of trust.

18
19

THE COURT:

Defendant B of A altered that date after

the same deed of trust on

You are saying that these lines of credit

from B of A or Countrywide Bank were never drawn down on?

20

MR. FREITAS:

21

THE COURT:

22

MR. FREITAS:

23

THE COURT:

Is that true?

24

MR. SPANN:

No, Your Honor.

25

No, sir.
Not even one penny?
Not even one penny.

It was a line of credit.

At the origination 140 grand was used to pay off a previous

8

1

loan, that was

2

November 2005

I believe, Mr. Freitas cites to a

3

THE COURT:

You have to speak more clearly.

4

MR. SPANN:

Sorry, Your Honor.

I believe Mr. Freitas

5

Complaint cites to a November 2005 re-conveyance.

6

a result of paying his loan.

7

existing lien.

8

loan.

9

HELOC.

That was as

It was used to pay off a $140,000

Then Mr. Freitas drew down periodically on the

I believe November 20th, 2006, he drew $69,000 on the

10

THE COURT:

11

MR. FREITAS:

Is that true?
No, sir.

Your Honor, Exhibit A, which

12

shows the October 12th, 2005, deed of trust on the First

13

Amended Complaint.

14

Exhibit B shows that the debt

because it was never

15

withdrawn, twelve years later, on July 1, 2016, a deed of full

16

re-conveyance was issued.

17
18

Exhibit C, is a deed of trust in which Bank of America
foreclosed.

19

THE COURT:

Please just -- see, you are going off into

20

tangents.

21

that loan that you are complaining about that you said was

22

never drawn down was used to pay off some other loan.

23
24
25

f

Right now I just want to know, Counsel said that

MR. FREITAS:

That's not true, Your Honor.

And B of A

has no admissible evidence to prove it.
THE COURT:

Those are two different things.

I'm

9

1

asking you:

Was it used for that purpose?

2

MR. FREITAS:

3

THE COURT:

4

MR. FREITAS:

No, sir.

I opened up one line of

credit.

7

THE COURT:

8

MR. FREITAS:

9

Now, let me tell you what I find strange

about your -- you say you opened up two lines of credit.

5
6

No, sir.

You said there were two a while ago.
No.

The second one was B of A who

altered -- made a copy of the October 12th, 2005; altered the

10

date.

11

changed the date, but they could not change the identification

12

numbers.

13

closing ID number, same document ID number, same mortgage

14

identification number.

15
16

And as evidence both of these, even the altered -- they

They have the same identification number, same escrow

THE COURT:

And that was paid off.

Why would you borrow money and not draw

down on it?

17

MR. FREITAS:

Because, Your Honor, my mom had passed

18

away in 2003.

19

the funeral of my mom, I wasn't sure if I had any money to take

20

care of my dad if my dad had passed away or if there was any

21

medical bills.

22

withdrawn.

23

My dad was an elder gentleman.

And I

after

But by the grace of God there was no money

We never needed it.

And as evidence of that, eleven years later, the bank

24

issued a deed of full re-conveyance; that the debt was paid

25

off.

What I did not know until then was that the B of A and

10

1

Countrywide had made a copy of that deed of trust, and they

2- —changed-the-datebut_they_couId-not_change_the identification
3

numbers.

And, therefore

4

THE COURT:

How much of that is true?

5

MR. SPANN:

The bank

these two deeds of trust

6

represent the same loan.

7

recorded was to correct the first because Mr. Freitas was

8

unable to have his ex-wife sign the first deed of trust.

9

you can see, the recorded copy has a line crossed out under

The reason that the second was

10

Fatima.

11

her.

12

only reason why it was recorded.

As

And the second one doesn't have a signature line for

It doesn't make her on the deed of trust.

That is the

13

THE COURT:

Why was there a re-conveyance?

14

MR. SPANN:

The re-conveyance was to clear up any

15

confusion as to the validity of the first deed of trust as to

16

that separately encumbering -- in a separate lien on the

17

property rather than just establishing the second as a

18

corrected deed of trust.

19
20
21

THE COURT:

Did you send a letter to Mr. Freitas

explaining all of that?
MR. SPANN:

I actually was in contact with Mr. Freitas

22

back then personally.

23

We recorded it just to clear up any confusion at that point.

24

And this has been going on for a while now.

-25-

We discussed this issue back in 2016.

THE-COURT :—Now ,—you—are_t e-ll ing_me_that_he_did_dr.aw.

11

1

down on the loan?

2

MR. SPANN*

That's correct.__ I have a loan payment

3

history.

I know it is outside the scope of our Motion to

4

Dismiss.

I also have the settlement statement from HUD that

5

shows the $140,000 initial draw for repaying off the --

6

THE COURT:

Can I see that?

7

MR. SPANN:

Yes, Your Honor.

8
9
10
11
12
13

(Whereupon, a brief pause was had.)
THE COURT:
is many pages.

Well, this is a long -- you have -- this

You have to put a sticker in.

MR. FREITAS:

Your Honor, there is no admissible

evidence here of any money being withdrawn down.
THE COURT:

Just a minute.

Counsel, take this long

14

document back and tag the part -- give Counsel a tag so that he

15

can tag what he wants me to read and then circle it so that I

16

can look at it.

17
18

(Whereupon, a brief pause was had.)
THE COURT:

Show Mr. Freitas what you are about to

19

show me before you hand it up.

20

MR. FREITAS:

Where is the transfer or check that

21

shows that that is actually done?

22

computer by anyone.

23

MR. SPANN:

24
-2-5

This can be done in a

Yeah, usually it is a card that they give

you or they give you a checkbook -THE COURT-:

-By—the—wayyou—two _don-Lt_get__tO—argue

12

1

with each other.

You only get to talk to me.

—2-

MR. SPANN:

3

evidence, wire transfers or

4

THE COURT s

5

MR. SPANN:

6

THE COURT:

You don't transfer any money without any

Mo.
or escrow.
That was not the point.

He is trying to

7

show me that there is a bank record showing that the money was

8

used to pay off some other.

9

a different point.

10
11
12
13

MR. FREITAS:

And now you are backing up to yet

Well, Your Honor, this could be made by

anyone.
THE COURT:

I want to see it, Mr. Freitas.

Counsel,

can you show it to me?

14

MR. SPANN:

Yes, Your Honor.

15

THE COURT:

How long is this going to take you?

16
17
18

(Whereupon, a brief pause was had.)
THE COURT:

You have circled something called initial

draw 2005, $138 plus thousand.

19

MR. SPANN:

Correct, Your Honor.

20

THE COURT:

What does that mean?

21

MR. SPANN:

That is the same note that is reflected on

22

the last line on the last page.

23

off the existing lien on the property.

It's the amount used to pay

24

THE COURT:

25

MR-i—SPANN:—Countrywide-.----

Who was the owner of that lien?

13

THE COURT:

1
2
3
4

draws.

So then there were a bunch of subsequent

What are those for?
MR. SPANN:

Those are times that Mr. Freitas drew down

on the line of credit.

5

THE COURT:

On his own?

6

MR. SPANN:

For his own purpose.

7

We

the bank

doesn't really question it.

8

THE COURT:

The bank what?

9

MR. SPANN:

I don't believe the bank questions the

10

reasoning behind Mr. Freitas' drawdowns.

11

THE COURT:

Well, there are seven or eight of those.

12

MR. SPANN:

Correct, Your Honor.

13

THE COURT:

For pretty large sums.

14

MR. SPANN:

True.

15

THE COURT:

Mr. Freitas, you deny that you drew down

16

those amounts?

17

MR. FREITAS:

18

THE COURT:

19
20

I do, Your Honor.
You are saying that the bank has phonied

up this evidence?
MR. FREITAS:

The bank created these documents as they

21

created the second deed of trust.

And they have been able to

22

do so many things; as my search has taken me to so many

23

directions as to what Bank of America has done and to foreclose

24

on properties illegally as they have done on mine.

25

have- -- any withdraws is done -- if it is a check, there would

They

14

1

be a copy of a check.
THE COURT:

2
3

Well, if they showed me a check, you would

say it is a forgery, wouldn't you?
MR. FREITAS:

4

No, sir, because if it is written by me,

5

and if it is deposited -- it has got to be deposited somewhere.

6

Where was it deposited?

7
8

THE COURT:

That's your point.

You would say:

Oh,

yes, that's a check but where was it deposited.
MR. FREITAS:

9
10
11

I mean

THE COURT:

No, sir.
You would always have some further

question to Mr.

12

MR. FREITAS:

13

THE COURT:

If I
He has given me some evidence on its face,

14

at least as a bank record, indicating that you drew down on the

15

loan.

16

MR. FREITAS:

No, sir.

If I write a check from a line

17

of credit, that check has got to be deposited somewhere.

18

then it goes back to the bank, which means the bank would then

19

have a record of where that money was deposited.

20

And

I have asked the bank to provide any evidence that that --

21

that this record is real, and the bank has not been able to

22

provide anything; no admissible evidence.

23

was transferred, for example, the initial transfer; but there

24

is no admissible evidence of such.

25

created just by anyone in a computer.

They claim that it

And this record can be

15

1
2

THE COURT:
All right.

I'm handing this document back to Counsel.

I give you one more minute to say whatever

3

else you want to say, Mr. Freitas.

4

have to go to.

I have other cases that I

5

MR. SPANN:

Your Honor, if I may?

6

THE COURT:

Yes.

7

MR. SPANN:

One other thing about the packet of

8

documents, if you notice the actual agreement for the HELOC on

9

the last page, it has the same date as the second deed of trust

10

representing that it was the corrected deed of trust and the

11

corrected loan documents.

12
13
14
15

THE COURT:

Thank you.

Mr. Freitas, I will give you

one more minute.
MR. FREITAS:

Thank you, Your Honor.

Plaintiff will prove injuries that were caused by

16

Defendant B of A.

17

on, a void unlawful detainer action which was based on the void

18

defective copy and then altered deed of trust recorded on

19

October 25, 2005.

20

Plaintiff's home was illegally foreclosed

Dymits versus Bank of American Brands (sic).

Plaintiff has been deprived of his due process rights

21

guaranteed under the California Constitution, Section 1,

22

Article 1, of the California Constitution.

23

Constitution, Section 1, 14th Amendment, U.S. Constitution;

24

each of which were violated when the homeowner was

25

involuntarily subjected to unlawful detainer, UD, forum,

In the U.S.

17

1

Each of these cases reflect the Court's

excuse me

2

recognition that when complexissues of title are involved, the

3

parties' constitutional rights to due process and the

4

litigation of those issues cannot be subordinated to the

5

summary procedures of unlawful detainer.

6

Superior Court --

7

THE COURT:

All right.

8

have one last question for you.

9

have a lawyer?

10
11

MR. FREITAS:

No, sir.

Asuncion versus

You have had more than
In the State court did you

I couldn't afford

I'm still

not able to afford one, but I am educated.

12

THE COURT:

13

MR. FREITAS:

14

THE COURT:

Of course.

I can see that.

And I do have
But, you know, the thing is if you go into

15

court and you goof it up -- even if you were in the right,

16

sometimes people goof it up.

17

court.

18

it up; and then the person that should have won loses.
MR. FREITAS:

20

THE COURT:

MR. FREITAS:

23

THE COURT:

25

Well, Your Honor
And that's the way the American system

works.

22

24

I see that occasionally in this

Sometimes they even have a lawyer, and the lawyer goofs

19

21

I

life.

When I was in the military -It is a concession to the shortness of

We have to move on and go to the next problem.
MR. FREITAS:

When I was -- this case is not like any

18

1

other case.

2

and --

This is a situation where a bank did unlawful

3

THE COURT:

4

MR. FREITAS:

5

THE COURT:

The Judge disagreed with you.
Without my knowledge -The Judge disagreed with that.

6

your chance.

7

did make that argument and you lost.

You could have made that argument.

8

MR. FREITAS:

9

THE COURT:

You had

You probably

Your Honor
You lost.

Now you want to come and get a

10

second crack at the apple with a brand new judge in federal

11

court.

12

MR. FREITAS:

Because the injuries in this case

13

happened after the last cases were dismissed.

14

the causes of action are not the same.

15

California have recognized that these issues of title, we

16

didn't have a

17

THE COURT:

And in this case

As the courts in

Tell me what exactly happened after

18

that -- all that litigation that is new for this case.

19

happened?

20

MR. FREITAS:

Defendant has foreclosed on a false,

21

altered deed of trust.

22

his property.

23
24

THE COURT:

What

Defendant has evicted Plaintiff from

What do you say to that point and why res

judicata doesn't apply to something that happened after the

2.5_ __ fact_?_

19

MR. SPANN:

1

Well, res judicata still applies because

2_

the same underlying facts are the same.

3

are all based upon the purported forged deed of trust.

4

because the foreclosure occurred after the fact and because he

5

wants to bring it up de novo doesn't change the facts.

6

still -- these claims are already litigated.

7

give him any —

Mr. Freitas' claims
Just

He

De novo doesn't

8

THE COURT:

The foreclosure wasn't litigated.

9

MR. SPANN:

The underlying facts was --

10

THE COURT:

Give me the underlying fact that was

11

litigated.

12

MR. SPANN:

He says

the whole basis of his claim is

13

that it was a void, forged deed of trust.

14

possibility that an equitable lien --

15

That fact

the

THE COURT:

Show me the Judge's ruling that rejected

MR. SPANN:

It is docket number 46 starting at page

19

THE COURT:

So there is a written ruling somewhere?

20

MR. SPANN:

There is a written ruling from April of

22

THE COURT:

And summarize what it says.

23

MR. SPANN:

That he doesn't argue --he doesn't

16

that.

17
18

21

24

111.

2016 .

dispute that he signed a deed of trust containing the essential

2 -5 - - terms-; that-there.-is^any-.difference, in the deeds of trust; that

20

1

there is any difference in the Plaintiff's obligations.

2

much -establishing, that..-- he doesn't really challenge the

3

actual validity of a lien on the property.

4

Pretty

While he does bring up de novo now, the underlying court

5

already decided the issue of whether.or not his challenge to

6

assignment of the deed of trust is voidable by going back to

7

Mr. Freitas' own complaint where he asserts that the assignment

8

was voidable.

9

De novo wouldn't change his outcome.

THE COURT:

I'm sorry.

10

waiting for their turn.

11

get an order out soon.

12

MR. FREITAS:

13

MR. SPANN:

I have other lawyers out there

The case is under submission.
Thank you.
Thank you, Your Honor.

Thank you.

14

(Proceedings adjourned at 8:27 a.m.j

15

--oOo--

16

CERTIFICATE OF REPORTER

17
18

I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled matter.

19
20

DATE:

Tuesday, December 17, 2019

21
22
23
24
-2-5-

I will

-Ma-r-la—F—Knox.,_RP.R„,_CRR.
U.S. Court Reporter

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX F
UP COMPLAINT OF COMMUNITY

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

ENDORSED
FILED
----- ALAMEDA-eOUNTY - -

Timothy A. Larsen (SBN 201326)
'\
?.

5

Attorney m Law

1032 East 14U| Street
San Leandro. C’A 94577
(510) 238 -9333

JUN 21 2019
CLERK OF THE SUPERIOR COUR f
By

Attorney for Plaintiff
COMMUNITY FUND. LLC

J'ANiA PtERC?"*

IN THE SUPERIOR COURT OF THE STATE OF CALIFORNIA

(5

IN AND FOR TUE COUNTY OF ALAMEDA
7

LIMITED JURISDICTION
5

COMMUNITY FUND. LLC.

) Case No.:
)

Plaintiff,
li
12

) VERIFIED COMPLAINT FOR UNLAWFUL
) DETAINER

Vs.

)

) ACTION BASED ON CCP § 1161 a
JOHN B. FREITAS, and DOES 1 through 10.

rs

Defendants.

15

) AMOUNT DEMANDED DOES NOT
) EXCEED $10,000
)
)
)

16

r<
15
-2
20

Plaintiff alleges:
l.

Plaint! 11 C’OMMUNl IY FUND, LLC (hereafter “Plaintiff) is an individual over

the age of 18.
2.

The real property, possession of which is sought in this action, is situated in

21

Alameda County in the above-named judicial district, and is commonly described as:

22

36549 Cedar Boulevard. Newark. CA 94560 (hereafter “Subject Premises”).

22

2.

21

Defendant JOHN B. FREITAS (hereafter “Defendant'*) is the occupant of the

Subject Premises, which is residential real properly, possession of which is sought in this action.

25

Plaintiff is informed and believes and on that basis alleges that at all times relevant to this
COMPLAINT FOR UNLAWFUL DETAINER - I

/

1

complaint. Defendant, and DOES 1 through 10. inclusive, are in possession of the Subject

2

Premises.

3
4

3.

The true names and capacities of DOES 1 through 10, inclusive, whether

individual, corporate, associate, or otherwise, are unknown to Plaintiff at this time, who therefore

5

sues said Defendant(s) by such fictitious names, and when die true names and capacities of such
6

Defendant(s) are ascertained, Plaintiff will seek leave of this Court to amend this complaint to
7
8
9

insert same.
4.

Plaintiff is informed and believes and on that basis alleges that each Defendant(s)

10

named in this Complaint is, and at all times relevant to this complaint was, the agent and

11

employee of each other Defendant(s) named in this Complaint, and was at all times acting within

12

the course and scope of such agency and employment.

13
14
15
16

5.

On or about June 3,2019, Plaintiff purchased the Subject Premises in accordance

with Section 2924 et seq. of the California Civil Code, and the title under the sale has been duly
perfected. Defendant is the former owner or claim under such persons. A copy of said Trustee’s
Deed is attached hereto, marked as Exhibit A, and incorporated herein by this reference.

17

6.

Plaintiff is the owner of and entitled to immediate possession of the property.

7.

On June 13,2019, Plaintiff caused to be served on Defendant a written to Notice

18
19
20

21
22
23

to Vacate requiring Defendant to vacate and deliver up possession of the Subject Premises to
Plaintiff within three (3) days after service of said notice. A true and correct copy of the Notice
to Vacate is attached hereto as Exhibit B and is incorporated by reference.
8.

The Notice to Vacate was served in compliance with Section 1162 of the Code of

24

Civil Procedure, as stated in the declaration of Proof of Service. A true and correct copy of the

25

declaration of Proof of Service is attached hereto as Exhibit C, and is incorporated by reference.

COMPLAINT FOR UNLAWFUL DETAINER - 2

1
2

9.

subject of the Civil Code Section 2924 sale, or claims under such persons.

3
4

Plaintiff is informed and believes., and thereon alleges, that Defendant was party

10.

On June 17,2019, the period stated in the Notice to Vacate expired at the end of

the day. Defendant failed to comply with the terms of the Notice according to its terms, and, has

5

refused to deliver up possession and continue in possession of the Subject Premises without
6

permission or consent of Plaintiff.
7
8
9

11.

The reasonable rental value of the Subject Premises is $63.33 per day, and

damages to Plaintiff caused by Defendant unlawful detention will accrue at that rate beginning

10

June 18,2019 and will continue to accrue at that rate as long as Defendant remains in possession

11

of the Subject Premises.

12

12.

Pursuant to California Evidence Code §453, Plaintiff stales that at the time of trial

13

it will request judicial notice be taken of certified copy of the recorded document, referred to in

14

paragraph 5 hereof and all proof of service then on file herein.

15
16

WHEREFORE, Plaintiff prays for judgment against Defendant, and each of them, as
follows:

17

1. Possession of die Subject Premises;
18

19
20

21
22
23
24
25

2. Costs incurred in this proceeding;
3. Damages at the rate of $63.33 per day from June 18,2019 for each day that
Defendant remains in possession through entry ofjudgment; and,
4. Such other and further relief as the Court may deem just and proper.
DATED: June 20, 2019
TimothyA. Larsen
Attorney for Plaintiff
COMMUNITY FUND. LLC
COMPLAINT FOR UNLAWFUL DETAINER - 3

W2,

VERIEICATON
I am a duly appointed officer with Plaintiff or its owner, and am authorized to sign this
verification on behalf of Plaintiff in this action. I have read the Complaint for Unlawful
Detainer. I am informed and believe that the foregoing is true and correct
I declare under the penally of perjury under the laws of the State of California that the
foregoing is true and correct, and that this verification was executed this
, 2019.

SIGNATURE;
NAME:

Jessica Araelu-Spiith

day of

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX G
“DEED OF TRUST” RECORDED OCT. 25th. 2005

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

}

awa141 mm. ii:i9 a

Recording ReoBCsaed By:
■Jr. ARIAS

'

5 J@»fr‘uteMCwn
sz,n»

ml
A6<» Rdcortfing Return To:

C03W‘PI{Y«m>K HOME TiOMS,

12 POS

tuc

-MS SV-79 JiOCOMRJJi? PROCESSING
P.O.Box 1Q4Z5
Van Nuya* CA 324:5-0423
PsepjHfedBy;
BARRINGTON SAYIOR

0120098TS-aPi

ISpucf AWd Tills LincJto Rtoorainiifiiifa}
U3S03754

G0on3S03?3<«09SS

’KfUjrKW/CUlHtrrS tt|

[on* rc 81

E>£EX> OF TRUSt AND ASSIGNMENT OF RENTS
WH 3 001337-0000 945111^3

W« Deed orrnrsi sccmvs *n obK^««» wbieJi citiis for payment of Imsmi nt« ^nuie intercsi rate;
TEE?
. DEED OP TRUST is made Oik a 4th
day of October, 2005
.between
d'Pitit B FRNxYaS, A/K/A OOBN tl PRRTtEAS, A ttARRISB MAN AS RTS SOXjK AtiO
CEPARATP! FROPKRTy

whose actchess Is,
‘
'
3«54S> CEDAR BLVD, NEWARK, CA 34560
herein caBcd Trustor,”
CTC RE&X. ESTATE SERVICES
400 COGSTftYtfTOlS m?t MSN SV-83, SIW VAilEY, CA "53063
**£? polled W and MORTGAGE ELECTRONIC ROTATION 3YSTRMS, INC, C’MKRS")

“'dits^je^tOTnndnfBslgnK, *itb an address of

3299 Kkd) <&ir5aji St • wto.SOO, Aiostandria, WV P.2314

toys, RW,

ca

Mjes-iTO**' 0f
P«g« 11?

'2 3 8 $ ST*'

• 4 * aTTIC 4"

“A,,’,h' STO* «*>«• rf

» • : i

DOC ID ft 00011380375410(105
and marc specifically described as;
SEE EXHIBIT llA» ATTACHED HERETO ABO tfAOffi A PART tiEREDE.

together with ail &>pio?«nci»s
Paresis Numbers 0P^0985021
now yr hereafter oreeted mi the proptRy, and afl ensemoins, rights, appurtenances, rents (subject however to
the iS^ta-TMid tnifobrittes gfcftao horom tb Lender to calic« and apply sat# terns), royold?a, mfoMai, oil and
gas rights sad profits, water, water rights, and water steels, and all fixture# now or hereafter nttatihed to cite
property, all of whioh, jncforfing replacement anti additions thereto, stmfl bo daataed to bi> and temnni t pan
of lihj property coveted by tills Dcfcri of Tftw; sod nil of the foregoing; together with said property (or the
leasobeldcsmte if toJs Deed ofTustis on a leasehold) oro herein referred to as lise Troparty,”

TRUSTCfc llNDERSTANDS and agroas font MBRS is s separate cprporadon acting solcdy os nominee'
for Lento* <»d Lender's apstfessats and assigns, and holds only legoTthle to the interests grouted by Trustor
Hi litis Deed of Tow*;, but, if itecCsssuy to comply with law or custom, MESS (as nominee for Lend® and
Lender's successor* and ttogns) has die right: tp exorcise eny or ell of those interests, Jncfetfing, Put not
Ibnitod ®, die rigte © fofooUnteand sell the Property, and to dike nhy action required ot Lena® including,
hot hOl KohlwJ to, wleasii« or cawtefo^ this Deed of Tro^,
r.

L

THIS DHHD OF TRUST SECURESt

.

n, AO Of the obligations .Of Trust® in fhvor of Tender or order under the terms of <r revolving
etediiaKittcmom rlntedOCyOBtcR, ad, 2C05
, herein called Agreement, The Agreement
provide, among other things, for tho piiymont of nit sums Mvaneed fey Leader from thas to dins
pursuant to the Agreement and lor ibe payment of interest. The triHxhnwn principal obligation
under the Agreatneat uj be soented fey this Deed of Trustat any oao rime is
TSKEE HUNDRED FOASTf • BUSS THOUSAND KXGHT HUKDRBD FORTY and 00/2 00
poHaiwfS 3c9, fitfo.OO
> antes Loader, with Trwafflrts ‘ written eonse% hift&titf

tocreesfcs thpr amoitot, Advances trtttdc by Lctrderto protect tbeaastirity of this Deed of Trust or to
preserve the Property Shall not fee subject to the. limitation of tot preceding semenee,
The security of this Deed of Trust shop not bo effected fey tho extension, renewal or ntuilificatieii
from timc.to time of foe obggofeoas, Jnsirnnusnts or agreements described ntxjve.
Is Tnymeat of any and all obligations aoti Bafeifidts, whatsoover, whether primary, sEcontlwy,
dircot. htdirect, fiafitJ ot <&mtinjjent; whotiter ti>\\ of taftalto dud Doth Trustof (of hoy successor h
Interest ip
whotheif created dhtaefly or aetjabed by ossigomoat if-the dpetn&nt oyStotefog
aidl obligation or Khbifity or any other writing signed by Trust® (or any successor in biterest to
Trastor) specifically provides that said oWigaddnfirJkbfljty is secured by this Deed of Tmsu
^
* VSIS HFIOC - ©A Oe«S ol Twot
tBUMHSA gl2U4)

PBJBSatlO

rttlsta;

.

. • i-'

l>0e ID It 0001238.0375410005
Ci Pcrfemnmee of each ngretiawpl Of- Trustor herein cowatowl or ocsttnined in mf 00®
agreement, bussomcai or oikcr
to which Trustor is a party Ao rmms is written in
easmeeitoa with any Ofthe foregoing,
A
2,

Ptiyreonl of all sim to &e expended by the Lender or Trustee pursuatu to ths tenns Isesso-f,

TOPROTISCTtHHSflCUKnV OJ5 TH& DUED <5>F T2.CST, TRUSTOR AGREES:
$u To keep tte Property itt good condition ood ^fcpoii'rnoi. to jtetnove sst (Ijiosofeh any
hnproyenutnt thereon;to complete or canseto becompeted any copsuruoriobdfbrfJdfa^stt outer
improvements tfte?eoti which are financed in whole or id part by the indebtedness shewed hereby
iroP u> restore promptly nod >o good sad wortononlite manner any building or olher improvement
which. T«oy l» damaged or destroyed ibareoa and to pay when A® oil efiaips tbi tobftf performed
attif materials furnished Ateefo# 10 efifluaJy wiih oil tow afSccdutJ the "Pfopsrty or re&arfns any •
alteration or hnjapvfiihenls to he mode themon; hot to coiwdt or permit waste dusteQR ®ol 10
commit, sufferer permit any ajt ttpohsniiJ .Property in vkdndon of tow to cultivate, irrigate, weed,
ffcrtiiiire, fumigate, spmy, preoe and do ad other acts which from the diameter or use of die Property
may ho mscnably necessiay, die. ape^Bo emimomtiocs harem not exdurSng the geheml
b. To provide, maintain ant) .deliver to L&utei* fire find other insurance oia the Property
j&ttafeeiory to and with lost payable je tender, The arnoont canceled tinder any fins or oihw
intainmeo policy nwy he applied by Louder upon iadablcdwosB Hccnrcd hereby and in weft order ns
Lender nay determina. or to option of Lcodto. llte entire amount 86 collected or any part thereof
mny be misused to Trertor, Such application or release shall not cure or waive any deftuilt
bewandecror iovaHdnte any awOpneparaiam to saeU nottee,
c, To appear in and defend any action or proceeding purporting to pftoa thfi security hereof or
the rights or powers ofLcrutor or Tmteoi and to puy nit costs and expenses, mclwfing oost of
evidence of title and atiotncy'si'ccs in a reasonable sure, ift any such fecdou or proceeding to which
Land<»*«r Trustee may eppotu!, inti in any toil brought by Lender K> foiuctoec riria 0«d of Trust, It
is ugrrnl thut ton .Leatter shall be subrogated to the dittoR «wl iicns oi’nfl parties whoso elaihJR or
liens arediscbnrged or paid Xtrixfa ihs proceeds of At) Agfcmritat secured hereby,.
A To pay m team ion buys before delinquency ull taxes tod oasessreen^ affecting the Property,
including, without'Ermtstioa, assassnaciU os npportcnaiU Water stock, all encumbrances, charges
and liens on the Property or tuty port thereof, and »B costs, fcsH and expenses of this trust,
I

e» -Tina should Tremor fail to muke any paymani or do uny not as herein proyided, then Leader or
Ttusicc, but whhoac obligation so to do end vitoeun notice to or demand upon Trustor and without
releasing Trustor front tuiy obligation hereof, tnnyi
(I) Make or do the some hi such taunher atid to such extonj m cifcer may d$».
Rccosstuy or i^propdote toprpieei the security itereof, Lender or Trusteo being auteafeed
to ^eotcr bpot) tlte Waperc? &a such purposes,
(2> Appour to ural dofisari any apstoii or proctscdiiig purporting 10 Affect the security
hereof or tl» rights or power ofIxmder or Tmace.
* ‘jCB6 I>EUX > Cft Demi ol Twst

jonus-CA !WiW}

PoBaOai in

W'

DO0 10 «-s 060113*0375416003
(3) Pay. punfease, contest or compromise any encumbrance, charge Of $cu ’Which in fee
judgment ofoithcr appears lo be prior and superior hereto.

m

ofitotsflstttobtofeos.
fv To pay jaaraciitolsty nad witooutdefeiavi oH saros an expended by Loader or Trustee,
jnjfinist from tote Of esp&as&ute at iho laasdrapm rateotowed by law hi offem at *0 ”r? v u ^
# m option of Under, sneh samamny bo added to die prineipl butasecof any indebtedness
secured hereby ami shall bear fee highest rati of interest as any such indebtedness.
To p»y for my statement provided to by the law in effect on the date hereof feeing the
obligation secured hereby In fee orommt demanded by the Under but not to exceed the nssximom
»fe?wetlby law nl the time ibe siraerarat is demanded.
3.

JT Eg FORTH2R AGREED THAT!

.

Any award of thtmages saconnocubuwith toy'condemnation for pnblio ase of or injuty to tot
Property of toy pen thereof is hereby assigned mid shall be pied to Ltotof who t»ay toPo
release s»eh monies received t>y it in the same meaner and with the same effect n* above provided
fordispo^Uw of proietsfe 0ro or other iasntanec.
ft, fiv acccpting, paymint of any sura secured hereby after m due date, or after the fifing of nofioe
nf defeat iiad of election to sett, Lcattor shitf am waive its right to requite prompt pnymani wto
due of aQ other sums so .scooted, or to declare default to failure sq to pay, or to pwtowas tfaa
fait amfce w>y tux* ttofe».of tofmih and of oletoto to sfe. to trey unpaid bntoce of »t»d
if Lender holds any additional security to any obligation stented hereby, » nuy
entocc th® sate thereof at its option, cither before, contemporaneously With, Of hfiof thb Shift is
made hcrenwlpf, ®xl os any default of Trustor Ltodo# to»y, nt its option, offitet against any
tedcbftonCNK owing by It to Trustor, the whole or hoy putt of the indebtedness secured hereby.
c. Without afreefog die liability toy pm, »vfeKS»& wife*** fsrtosaito, Tmtor, to tiro,
paymeut of any indebtedness sceansd Itareby, or tha Ben of this Dead of Trust os fee -fentoatof of
the Property to fee fail amount of any indebtedness unpaid, Loader and Trustee it® respectively
empowered ns follows;
<X>

Lemter AVsy

m i.rrw. m*i wStikCHii not«w 00 catenae luiy pweem Htfelo f«» tha

payment of any of fee indebtedness, (b) extend fee tote ®r ofeorwise alter fee terms of
peyroent of any of the indebwiteoss, (e) accept toditiwroi second thereto ot any kind,
inetofeng Deeds of Trust or mortgages, fd) alto, xn&sfeuie or release any of the?»pcrfy
securing the indebtedness,
(2) Trastcs may, at any tin®, and fro® tote to time, cjibn the written togwhs of Lender
<n> consent to feo aafcnig of toy map Of i^fit of fee Property, (b) Join in grantfeg any
easement or Creating any xostnedoa thoreou,. (e) jottt in any sohorfentition or other
agreement ftSecdng this Deed of Trust or fee lies car charge thereof or, (d) masavey,
without any warranty, all or any pan of the Property,
* «rns > un.de. ca Chetiai'Tmat
’DSS6OAt0»C4}

PajeA »*)«

Inilmte

&

DOG Ip St 0'061I3${I37541Q<!G5
d, Upon (a) written request of Under or (b) pe&tama of afl otahtos of die Trtislfti
bownndcr and winter each.and every nme, gtatattS, AgfiWhonlor other writing ?w&nelng the
irttlcbietlness scoured hereby, end upon surrender of this Dsed of Trust to Trustee for cintcoltotion
and mention and upon payment of its fees, Trustee stall reepnwy* without warr&myj LhflTfOpCfly
tbon held tareuntter,, The r«rtal to socit TecURvcyanee of ay mattes of facts sb&B be tjotatosave
proofs the tfliihfolncss thereof. The grantee to such xcitoavoyance may be described as "the person,
or persons tegnBy emitted thoatto,1' Pivo ycara after tosutuM* of such reCoitveyoncC. Tntstee ratty
destroy sakf note, ©Jfinatloo, Agroomom or other evidence Of indebtedness and this Dent of Trust
(Tmtoxji {tawed in such rotjBjsi ft) rotnto them),
e, Trustor hereby gives to and confers upon Leader rife right, power and authority curing the
coniSnuancc of rhcao iroiastoeoB&onlro routs; issues and profits Of the Property and of asy persomu
property toeated dieidwt, and tasty absolutely mid uneomBtteiroBy as^s** aU such «»***
and profits » Looden provid&di however, twn. Leader- hereby eoiwatim to tta coHeebon ftw
ictcntbs of such toots, issues and profits as n»y accrue and besoms payable only ifTVUfitor is not*
at such, too, 5n detail with, wapset to payment cf any todafctod6C.%> seemed taehy W ra 8»
perfornwwic of u»y ugros»ta*rt taraundcr. Cpon any such dofhaft, Lender ratty of any rime, without
notice, either m person, by agent, or by a roeeiverio bo appointed hjy a cota* without fcgiud so the
atieowwy of any security for toe indebtedness hereby secured «ad without (btultogihc gonatwtiy Of
Section 24.(1), aboyc, enter upon aed tete possession of the Pfopsrty or ray pan thereof; rad in its
own ftfimte sue for or oitterwine-ootieei such ronts, toroes trad profits, feofutSng those past duo and
, unpaid, and apply ita soma, loss oosta pad estposses of opwadoa and coneetkro, tattadtog
reasonable attorney's fees, upon any indebtedness aoeutad hereby, and In such ardor as tender rany
ttetomunet «fco perforin such acts of repair, nurturing, cultivation, irrigation, weeding, ffeStetog,
fnffugufton, spraying, pruaing or proitaiion, ns cay Ss necessary of proper to conserve tho valoe of
the Property or any trwra, planting orerops growing tatoon. tab Iwkb the same or any pfirttharthf
tor such round, lonn, find upon such conditioas as its jttdgnfcnt toby dictate! oJ»i> prop** for
bjbvosi, sever, remove, and sod nnycrops thntmay bb growing upon ttepromSssat, nad apply ton lm
proceeds thereof to the inclehietaem eetMiTOd hsrfeby, The eottan^ iipte, toil taking pSWWifrtitnt of

tiro Property trod perfonnisBce or toUuro to perform troy of the acts described in the preceding
sentence, toe collection of or Mloro to eofiept such routs, issues raid profits, atul the upplicathHv
thereof ns o&3re«ud, stall not wmve or enro any do&ndt or notice of defanlt hcrsajiutor, or invalidats
at^ net dow pratrarmt to such notice ssa shall nut constituta or oihwwisc totaU to shy nstapplioa
by or liabifity of Louder fqr nwratonumc, depreEtotiOt, iftisusfe 6T risk of idss other than lor dnmoge ,
or toss to the Prepay due to Lepdartt gro® negfigewte <a toiwUcnal um Ttwneralh-o tawBns to
TiusJee, us fmfrsr security tor the portomnmec of toe ubSgatiom secured botohy. bII prepaid toms,

aml ntl vnotiiiS which may Imve been w mny hcrottOefbo doptssitod wUh^eitf Trustor byany iameo '
of tiro proortBes hcxToin dascrJtusl, to sbc&ro the ptiyiUbSt Of nny wrt, and up^l detouit in the -

performance of troy of toe provisions hereof, Trustor agteos to taiver such /cots tad deposits to Ihe
’frusieo.
f, Upon detail by iinistorin toe putfomnmoeof any puymbnt of other obligation oecpied hereby
or to thepcrfoniffincc of any agpeoinont Upfisrodcr, writ whetoef volpnjarily or involuntarily, thort
to a sate or transfer of ail of any part of (i> The Propo/ty or an interest therein, or(S) a benefipiri
jatersirt in Trustor nod Traitor h; not o natural pamon, erf IP Trastar aa^itm i& dps 0,6 Proporfy a#

TroaiOrtt prfmiwy msibenea, Lender may decJ&ro all auta mtourod hereby immcttacly doc without
tatiee or demand ami «o waiver of tids right shall be effective unless is writing nml signed by
tender,
• webs wane .,OA O*aa rfTiuai
ft»a».GA<{SVi)fl

irfjteftf

,

.-r

2X

BOC » Si OW113093 WHW5
g. Wfli vof of a riglu granted » Under hereunder as to obo trainmefion or xrnm&ass sJtaB nol be
deemed u> bo o waiver of fee right ns to tmf subsequent tametoi or tt<taR'repcd» Latter may
rescind imywttieei before Trustee's wile, by raeetttiiig & notice, of rasciffiaorS and reecadfcg the snrftj,
THs recordation of such notice stall constitute also ftcaaeenotitaofwy prior dcctorMiou ofticffiplt
pad demand for salts; and of any *cce3te»lfa« of ntotority Of indebtedness netted by tiny prior
declaration or notice of deftren, *is»e exereise by Under of tha right or rescission shall not constitute
n waiver of cay delimit toco ejdstiog or subsequently occurring, nor impair toe rigfil of too Lender
to execute other deetomiotis ofdoitali aad.damrari Sir sols, or notices ofd&Mt tmd of election to
ccnsc the Property to be sold, tar ottafvriw effect too note or deed of trash or any of toe rights,
obfigations cr-rcmorfios of too Lender or Trustee hetfsumfer.
it At loom three months or ony Josser period required by tew baying elapsed between too
Meafdadbn of the notice of dcftrelt end too date of snta Trustee, having first given nwicoof snlons:
toon required bylaw, stall self too'Prcpoiiy to toe tone end piece of phuEtecd by itin toe notice of
sale, either as a whole or m .HepsTPie parcels, and hi such order ns the Trustee tang determine, at
puttie auction to too hjgJmst biaapr tor ctah, to ktwftd money of tta.'Oitftecl States cf AweriWt,
tootobto to too ttoaoof toto except os otherwise permitted by taw, Itostce may postpone side ctfiiJI
or nay portion of too Prppcny by puttie t»tto»»n«nwiH «■ tod time of sute, mi from time JO tide
thereafter may postpone the sale by puttie annoDncemtoa, dll to pejsntted by law. Trustee stall
dedver to toe purchoKor its deed eottveyiog the P/opeay so sold, bat without any covenant or
warranty, expressed or implied, Tie recital in tmy and? toad of toy motors or facts, stated either
speriflcttfty to* in gonernt terms, or as conclusions of lew ot feet, sMJ.be eoncluElve proof of toe
truthfulness thereof, Asay person, inclomag Trustor, Tnisteoor Lender, Winy pusabwse ftt the sate,
Alter deducting all costs, toes and expenses ofTruntee and of litis trust, htdtiding exists of evidence
of ride hKODBoctiop wMi the imlo, the Tresioc sladl uppty tits proceeds of tots sale to too payment
a( all sums toco tsetairod hereby, 5a such wrier and manner as may boregyired by die Lsntosrj tbc
rwntthde#, iftmy.io ito paid to Ita pnreta Of persons legally entitled (horstd. IfLender stall elect to
bring soil io foreclose this" dead of Trust in the ntanaer and subject to the provisions, righu and
rerntsfipjf relating to too foreclosure of.*flioitgng&, Lender rimS be pathlod to HMtsdnabls ultoriiiy'S
fees and htigntiOn Ookw,'
i. L&nfot, or any successor in owamltip of any intietoetftiatfi sfitojftd hereby, may from time to
unto, by instrument re writing; substitute a successor or sweessots to tmyTnmtcc named herein or
aamg horeisndcr, which taarument, exeemed by the Dates? and duly nctaowlttegsd end recorded
m the oflfce of toe reewtter of toe* county v counties where said Propwty is situated, stall few
conclastvc proof of propat snhxUiwlwi of mioh successor Trainee or Thistocs* wboshnU, without
crwvto'imco tram the Trustee prectonessiw, jaicpoed ro all its ride, eftltas, rishiB, mwes and rimioa.
Sim! jostnimortt are« conuun the tMtme of toe arijEmud Trustor, Tratase tmi Londar hereunder, toe
k tuttf poge 's^xorc ion? Dcod Xtqbi }s rcoojxiful w^d tirtho luiclfesfi of the tlcw
j. Tilsi Deed of Trust appltea to, imtres to the baaefil of, end. binds nil parricft hereto, tooir heift,
legatees, oevrsees, ndmkttsrrntots, Wituctitoto, nuecessocs msl itssigps. 7Tib term Loader shall mean
tireowtrerand httd&i*, inctotong, iratooat Emitnttott, pledgees, of the nme, gtrnmmee, Agreaaaat, or
oibar wdenos of woobtedne^ istothed hsiefc^y whether or not named an Lender hejein, is this
Dccd of Tnta, whc»icver rite eontoxt-No rsqulreK, the sifiplw number includes {he plural

* >,1EFW HS330C- C* DdAD e|TouM

•D9C&OA iemq

tav ern to

into]

W-

DOG IB Is 0C0II35Q3?«:000b
k, Trustee acecplsthb. trust when this Deed ol' Trust, daly WCtHCd PAti fiCkflOwif-dgcd, is tfisdflf a
public record as provided by Saw, thratoe is aot obligated to notify wiy party hqreda ofpmlfog saio
under my othor Deed of Truitt or of any action or ptoocctfing in which TreMor, Lender or Trustee
.'ton be n party uotess bnoogia hylresto,
l, If Trustor or a»y successor in iniere&t to ’ifotstof stiln, tnnitfm w ettombfiffi uijyiniitotft m to
Property, whether votawaDiy or iowloomrUy, or. if a hfiitefiejfit imdfest at Trustor w sold or
inrcsfcw&L voluntarily w involuntarily, and Trustor is nol&nntsnif person: (a) to Irnnsferor nmt die
trniwferce shat! eat* imma&uely give written notice of aftki transfer to {fee Lender, at iB address
designated on to dm page of this Deed of Trust," (h) if this Dead of Trust seeutss Trustor’s
obligation under so Agreement as defined here»n, ai3 erediVextendad byLender tmdafto Agreement,
whether before of nfioribs Property h trcnsforreii, strati be secured under this Deed ofTrust ns if no
transfer bad oectwed except Jto credit extended by Lander jboib ton five days after it hn* received
to written notices required by tHs-paragraph,
ro. The pleading of my etetuUjof limitations us e defense in any and all obligations racufed by this
Deed of Trust s hereby waived to to fefi extent permitted by Jaw,

4.

wmi

regard to

mwiscmmm/a,

TRUSTOR AGREES:
a. As used in this-Paragraph-4:

laws a?® hazardous substances,

(!) UpvirtSnjBcnad Law" means stl federal. suite anti total tow edneamiag tire pebiio tenlth,
safety of welihro, environment or a Baxartious Substance, including' without Jtoiitatiwi, the
Comprehensive Environmental Response, Compensafion iifld Liability Ant, 42 VS,C, See, tifitil ot
set*.,)Xea&ma Couservatioo Dad Recovery Acl, 42 U&C. Sts, $9(jl pi s$C|n Tojtfe Substances
CoiUK)) Act. 15 C.5.C, Set 2601 «L sa$, Bszaatons Materials Transportation Act, 4S> 'OS.C.See, *
mi at scq„ aeon Watw A« and W«er Quality Act of 1987, 33 U.SjG i &*• 125! et retp. Safe
Drinking Wntw Act, 41 U.S.C. Spq, 300f el s«U C3«w Ah' Act, At U.S.C, See, 7901 ei stQ„
CotpoMer-Prestoy-Titoer Haandous Account Act, C»Wfeuld)& Safety dado See. 25309 et s«j„
Hazardous Waste Control Law, CoWTeat* & Safely Code See. 25100 a ««}„• Porter-Cologne
Water QuftR^ Control Act, Cal,Water Code Soo, 1300 et saqi, HiBawfotM Waste Disposal UredUse
Law, CoLHeRitft & Safety Cede Sea 25220 at sctjvS&fe Drinking Water and Toxic Bnlbreaaraxsf
Act of 1$S6, CaLHoatth St Safety Code Sec, 2524PJS et set*,, Hmardot^ Siibsumcoi! Datoground
Storage Tank-Law, CnLHenJtii St Safety Code See, 2S2S0et«rfj„ Air Resources Law, ftiflfenffli £>
&uay C0&& 5t>0x 300fi sci^t Hu^firdous Matemls Relflaae R&fiponua PJorw jtorf feycnioi'y,
OiLHctatb-A Soibty Obrte Sed 25500 ct scq., and Tbidc Pits Oennup Act of 1934, r-ni th-nht) &
Safety Code Sac, SStOBotsecj. <2) "Hazardous Substance" jnemia any sobstwice whiidi bps dmrtwtoristiffi of iphtfetiity,
cotfosMiy, toxicity, reactivity or mlioactiviry or other tfvaractcriaiica which rendar it dangoroas or
potentially dangerous to puMie health, safety or waiferc or to onvlfonmcm, incfeiSug witiimtt
iinuustion, 0 patrolmen or any iStotion or dtftor byprddaa ihct'coC 5») asbestos, (m) lend, fiv)
cytHtida, (v) potychtorfaoto biphtoiyj£t <vi) urea fetrcaWebydt and W) anythfeg ddsnadw it
“ho^irtteiB maicrial," "toxk aitettmcc," ’‘biizardota sobstimce,"'’hfeardbus \vaiaes or "wasto”1
under any SnylrootftcAtol Lnw, inctodihg without llrxtotto, 'WrdouS .wtewroeo*^ at-donned in
Caf.Hctttoi * Safety Otoe- Sue. 25316 unit Wo’' and ’taordew* subs^aBea,, os daSsed fe CaLWoter Cod® Soft i
and Sec,' 13tiy&rp)(J), rtap-retivoty, Tba term is intentiad by Trostor
imo Lwulor to bo ima^med ih Sts rcosicotorolfeircivc amtcumuttva souse,
® WS^HlAOC-CAOsveoJThn*

motac&tpito*}

PngsYtsfta

WKEa!

DOG ID #f QOflJ5-38O>W4iO00B
h. Trustor rcpre&oyt
yarrfisus iJsM oxc^U bs tfisctoscd to Had acknowledged in waling by
Lender bofpfe the date of this Deed oi Trust:
(3) Kq HtessHfens Substance te been located, used. maanfaettrod, genc*al«l, treated,
landlady .stored, spilled, disposed of, discharged or rdEeasad by any person on; under or about the Property, ...
•
.
•
(2) Trustor hoa oo knowledge of or reason to believe flat there is. any pendi»| Or
tb&atencd invosfigafion, assessment, claim, demund, oedon or proceeding of any
relating U>CO tiny nBegad or nstoai HmrdouB Sttosinnec located under or about the PtopOrty
or
or ociuftl violation w
fey SrtJKlCHT liny ItftftoU of ^Tjrostor
regard to any environmental Lira Involving the Property.
m Neither Tn&ior nor m*. tenant of Trtistot.: Ss.requiTatl by my. Jtovirontofintol t*v to
obtafo.orarttotaSn any pah»5|, Keenso, finnnctef respooiabahy certificate or oth« apjwDVnl
as a condition to Its business aperadons nr ift eotinecrion with, its usi* esYwopraont or
rmiiBiSjtrwcc of the Property,.
e. Trustor represents and wan-unlfe Hint Trustor and every tenant qi Trustor have, been, am and
will xcjrt^n hi fttll eoapHnocc with nay Kirdrojinioniai Uw applicable tbits bushwtffl operations
and its use, rievotfipmoni or wnnitermnea afihft property,
d. Truster ngroos to permit, or cause any tenant of Trusw to pertnti* Lender to enter and inspect
the Property at any reasttnafcic fiore for purposes, of dotonnining, as Condor deflna necessary or
desirables the existence, location and ttetbro of any Hazardous Substance os, antler or oBput tha
Property, (jj) the ffidsteneo, location, nature, Magnitude and .spread of toiyflaznrdcaisSutewneBthm
has been spilled, ifinphBcd otVOtschiirged or roloMtsd on, uijdcr or about the Property or (ill) whether
or not Trustor imd any lonartf ofT/nsinr nre in compliance with applicable EtasdrojiffleBUtlLaWi If
trostor or its taramt (bits to comply fully -with the terms Itereof, Lohdor mey obfifin affirmative
injunctive relief thasoeTori
c. Trustor agrees to htdcanniiy and bolSLender and Its SuctteSsors pf assigns harmless item and
upnosi nti losses, cht'wis, demaada, fihhiUttas, damages, ctetaup, response and remediut'rou costs,
pnnntties and expoasos, induffing, without Bmilntton. all costs of litigation and attorney^ fees,
which Lender and its* successors and assigns may dSreetiy or indirectly snstsUs or suffer as a
consequence of any inaccuracy or breach of any representation, warranty orpromisB mado in dre,
teccd vt Tra-x h* cuwueocion -with »»y VasnapSaws Sutremnca Or EavJWtroiomnl Low.

rJoiwidjsrancting.any of too luligtiBge In this Deed of Trust to the OOairniy, this ImtertruiHy covers
claim asserted efter all the indibttdnoss scoured by tola Deed of Trust 1ms been paid and
discharged, whether or ecu this Daad of Treat ins also been recottvcycd to Trustor, Die only
exclusions'bproio nmy relate to cl^ms arising oat of tbo affinnnrivc nets of Lcttesf or of it fifird
party lifter Trusun'S inlcreat u\ tiia Property bns torminatiid,

• vfcHywfci-OO'CAtJccaol Trurt
j05»s«i tOJfOS,*

10

. mtofCp*
£rZ-.

I

DOC ID tfi 'QQ91X3B<5375.4lCi065
f. mjtfovJsiDns of (his fttragrapM Ml not *4 pffscledi>y to assnisitfan by Unto orbs
sncctasws.or assies Of any ownetslrip or other Interest In to jroprtty bcyoirf Underis security
miewxtkiheProporty wonted unto this Deed ^fTn©^ whether onwUtidj aKiDfettol is ptoua# '
to to fotecioscre of this -Deist! of Trosl or s marger of Ihc-inicrosl of the Unto or Its soeecssors
and nsstgfis/D the Fniperty, .■
.
5.

ADDITIONAl* PROVISIONS;
a, Tto execution of Otis peed.Of TbJst by any parson wlto hosito present wic«s8t in the Property
shaft not bp deemed to indicate dirt Rtseh an interest pftaoatty exists. Rnihec, execution of this Peed
of Trust tty »»ch a person shall constitute such personta agreataent this if cosh per## herouto
acquires an interest in to Property, such interest shell be sabject to thetoerm granted hereunder,
hi The esceution of this
Trusi-by any person who has a praenUmtort to, to Property
shaft not in itself be deemed to indicate that t>vcb person w liaWc to Lender to any dbj%0l«pfl
described io Section t„ above, Any personal liahiilty of such person to Lender shall be detetnikod
on an indopcudanl bufcls (such at eseeoilta of lhp document or documents evidoiieuigto obligation
described in Section i.,-above), tSkecudOtt of this Deed of Trust by nay mwJj person shaft
nevertheless indicate M such j«r«»'s interest in to Property shaft bo surest id the intercut
granted hereunder.

• V£fi6 WajOtS-CAXtentlot Trail
1OW»<AaMS0>»)

.PagBOjjtiD

faifola:

r

DOC IB h 0001138037341OOG5
'Tto undersigned Trustors request iii'.u ft wpy of wy nfstlcO Of liefaulu and Of *W OOiiOO of side
littounck*. bo annlcd to iftisf taspectim addmasosset forth Wow,
By stesfog Wow, Trostoragrecs to till the terms bad coofftiofts of thmPocd of.Tntsu
Mn'dtog Address Hof Notices

.

.

CUKORSVfD
KSHMUS, OA< 94S€0

0.'.,

State t>r California . h
CtBwiiyof diA****
Ob

a?e^‘ t7

1

JtooS.

, before i»e

—-■

OSrtw £ w*b tfttl-f1****, personnE)’ appeared

■3oM t) 3. f/iei+-aJ>
, pefiww^56-ft»9W>Htrn» {orpTOrved ic roc cm the bctais
of sBtiRf«iCM*y evidence) to be the person^) wiiOfic nnnse® is/sre subscribed to the within iiMtnunant find
acknowledged to me limt ho/efeB^ky oxeomocf the same is Msftsrrt&eir trofooteed capacity^,*), and that by
hisdltefiiiheat signrouto(^ on the mstrameat the peasants or the eadty upon behalf of which flic pentofiC^,
noted, executed the Instrument.
WTNBSS toy hand and official seni,

V
I ,<££!£&/ dOSU.ENK.ldNS 1

* .VCRS HELOC • CAOestS a! 7*m

ipaeiK»<ese4)

Psp»4ep!i0

r mm

COMMISSION M783D3 l
S ROJ?ta?«E)OOftSWm $
*
^
jif
I

. • • Prepaid t^:BA«ftfNl<aTOM tAVl.OB

Ooyntivvvtd& BaftlCjUA. >

DATE:
CASE#:

BrapOft Si 00008CS
1300 5M5CBA55 COKP PKW7,. WO
SUfiJRISfy Ft, .33323
Phone: {856)752-575?
sir rax So.s ieco)231-34JQ

1S/14/2S35

DOC JD jft
OCC11380373'HnOS5
BORROWER COHKT J3. i’HSITAS
PROPERTY ADDRESS: 35M9 csdak

aivo
\mm, CA 94563-2532
IMQAb BSSCKIFIION EXfflB3TA

pha/va/cowv
* Legal Description Exhtoit A
1G404-XX <O4/03K<J)

1TO o

i
I

8 5 0 4 9 1

I
ii
S *

- -v

Order No, 51032280 - tG92ZS0'49
*
i

•

a

EXHIBIT "ONE*
Pureei t, as shwoh 6" Urn Parcel MaJ (tad (Of rsoord in
ofifeo to
a?*
cww if Aiwnada, Swto of Calitofflla, on July SO, 1978, In Bax 79 pf Maps, pass 97,
Assessor's Pares! No; GO? A-008 5-021
»

;;

2-

;Rev. 1 I/ I ItQty

-

ILLEGIBLE NOTARY SEAL DECLARATION
(GOVERNM&TT CODE 27361.7)
I DECLARE UNDER PENALTY OP PEWURYTHAT THE NOTARY
SEAL ON THE DOCUMEbR' TO 'WHICHTHIS'STATEIiiENr IS
ATTACHED, READS AS FOLLOWS;
NAME OF NOTARY PUBUC;.'0|.&\5jA V VAfltt
'<*“•*<*............

.................

.....

COMMISSION NUMSimr ....
• NOTARY PUBLIC STATE:
COUNTY;
M Y COMM, EXPIRES:
(t>AT£j

«*»

SIGNATURE OF .DECLARANT:
PRINT NAME OF DECLARANT:

3. Giron

CITY AMD STATE OF EXECUTION: OAKLAND. CA
DATE SIGNED:

-

•»

W/^ M

THE ABOVE"INFORMATION MUST BF. LEOIELE FOR SCANMOS'C

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX H

“TRUSTEE’S DEED UPON SALE”

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

Remdiumsaitcd by;
WhenncoKMitxato;
COMMUNITY FUND LLC
1032BI4THST
SAN LEANDRO, CA 94577
. Forward tax statements to the address given above
' TS No; CA-14-610521-Al
Order No.: 144001632-01

M

2M8IKUJ

miim <2:34 PH

^jjcro. ^tmos of ftumm county

WHIff*'

47?:«
pes

rtl ‘A

1
S'*

Spses above tlttt Hue ftrraccnlMute
♦*i rvo */» tc , CA

Trustee's Deed Upon Sale
A.P.N.! 092A-09$S-42(
THE UNDERSIGNED GRANTOR DECLARES:
The grantee herein WASNT die foreclosing benofldary.
The amount ofthe unpaid debt together with costa was:
The amount paid fay the grantee at die trustee sale was:
The documentary tnuuftr tax Is:
Sold property Is (a the City oft NEWARK, County ofALAMEDA

$519,631.20
,, $434,606.00

QUALITY LOAN SERVICE CORPORATION as Trustee, (whereas so designated in (he Dead of Trust
hereunder mom particularly described or as duly appointed Trustee) dees hereby GRANT and CONVEY to:
COMMUNITY FUND LLC
(herein called Grantee) but without covenant or "warranty, expressed or implied, all right title and interest conveyed
to and now held by it as Trustee under the Deed of Trust in end to the property, situated In (he county of
ALAMEDA, State ofCalifomhi, described as follows:
PARCEL I, AS SHOWN ON THAT PARCEL MAP FILED FOR RECORD IN THE OFFICE OF THE
RECORDER OFTHE COUNTY ALAMEDA, STATE OFCALFTFORNJA, ON JULY 30,1973, IN BOOK
79 OF MAPS, PACE 97.
This conveyance Is made in compliance with the terms and provisions ofthe Deed of Trust executed by JOHN B
FREITAS, A/K/A JOHN B FREITAS, A MARRIED MAN AS irilS SOLE AND SEPARATE PROPERTY, as
truster, (fated IC/I4/2065, and recorded on 10050065*08 Instrument No. 20034SPI8I of Official Records In (he
. office ofthe Recorder of ALAMEDA, California, under the authority and powers vested in the Trustee designated
in the Deed ofTbust or as the duly appointed trustee, default having occurred under the Dead oflYust pursuant to
** Notice of Breach and Election to Sell under the Deed of Treat recorded on 4/29/2014, Instrument no 201410212% ofOfficial records. The Trustee of record at foe relevant time having compiled with ail applicable statutory
R<|uIr6nwAt) ofthe Sf8t$ of Oslllbtnh &nd p&rfteiscd oil dttdsft rujulrcd by the Docd of Trust including tending a
Notteeof Default and Election to Sell within ten/thlity day* after its recording and a Notice of Sale at least twenty
SbrntaClWK^J^«?y
mdl*pouafi®Pre*P*w to tach
«««W » notion in complianee with •
Default occurred as set forth fat a Notice of Default and Election to Sell which was recorded in foe office Of the '
Recorder ofsaid County.

■

All requirement of law regarding the nailing of copies of notices or the publication of a copy of the Notice of
DefeuU or the personal delivery of the copy ofthe Notice of Detail! and the posting and publication ofcopies ofthe
Notice ofSale have been compiled with.
Said property was sold by said Trustee at public auction on 690019 at thaplace named In tire Notice ofSale, In the
County of ALAMEDA, California, in which tire property Is Med. Grantee, being the highest bidder at such sale,
became the purchaser of said property and paid therefore to said trustee the amount being $434^100.00 hi lawful
money ofthe United States, or by the satlsftction, pro tanto, ofthe obligations then secured by add Deed ofTrust,

QUMJTY Iv^Y BE.CONSIDERED A DEBT COLLECTOR ATTEMPTING TO COLLECT
A DEBT AND ANY INFORMATION OBTAINED WILL BE USED FOR THAT PURPOSE.
TSNo~* CA*I4-5I052!*AL
Date;

ot/io/h

QUAL1TY LOAN SERVICE CORPORATION
By: Damian R&nirez, Assistant Secretary

A notsty public or other officer completing title certificate verlfles-only the Identity of the Individual who signed
the document to which this certificate is attached, and not the truthfulness, accuracy, or validity ofthat document.
State ofi California!
County oft San Dfegol
before me.
Knthertee A. .Davis
a notary public, personally
On ----- JjJN-3. 0 ||18
BwawdUSiWian
____ , who proved to me on tiio basis of satisfactory evidence to be the
posonfs) whose nuns® Mm subscribed to the within instrument and ecknowiedged to me that haAbeAhey
executed the same in hltAtetftiwlr authorbad capachyOes), and that by hisflterffiieir signature® on tire instrument
foe person®, or the entity upon behalfofwhlch foe person® acted, executed tire instrument
I cmlty under PENALTY OF PERJURY under the laws of foe State of California that the foregoing paragraph U
true and correct.
WITNESS my hand

dal

'

A

(Seal)

Signature
Katherine A. Davis

i

•itv \V.

MyCanaa. twIroPtt». MM
I •

/*

. \ •

•V

MotiiyMWcCsWbmb

s

•»
• ’

m XSTHOBKE
luur A. DAVIS

*lf *

• a

. <• .

• * •<...
• i'hI

1

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX I
“3-DAY NOTICE TO PAY OR QUIT”

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

DECLARATION OF PROOF Q£ SERVICE OF MOTiCS TO OCCUPANT
OnXrJg. iZjZOlT

i served the No$oe(s} herein to tfte foSiowing occupants):

(Oaie of Service of Notice)

Oohbi B» pjiuh>s
(insert name or ocwpgnO

I&isert iuuto of cCOJpBru)

__ _ 3 Day Notice to Pay Rant or Quit
__ , 3 Day Notice to Perform Covenant or-Quit
___ 30 Day Notice of Termination of Tenancy
___ 60 Day Notice of Temtination of Tenancy
* Notice of Possession
__ _ Other:_____________________
The Notions} set forth abate were served at the following address:
MtnuCLft 1C

. $</£4>o

3feiP?T

&edkviL*j<l

•

The NO&COfe) set forth above was served on behalf of the following property martagetfinsner:
yOftntwu&jtTr

Fuk/ci

LL C

(toiQrtMfne of FVttpeny O^nagerfOw rteO

The Noticefs) set forth above were served by:
X_ PERSONAL DELIVERY: i HANDED a copy of the No?ice(s) to Sheloliowing occupants):
J&fuj

}hsett«an» sf eccapam)

them nameof occupant)

____ SUBSTITUTED SERVICE BY LEAVING NOTICES MAILING: i DEFT copies of the NotJcels) wth a person
of suitable age and discretion at the residence or usual place of business of the Occupant^ said OccupanUs)
being absent mere from. Thereafter, on the same date, t also MAILED copes of the Noficefs) to the Occupants) by
depositing a sealed envelope with First Class postage fully prepaid, tn the United States Marl, addressed to the
Oseupantfs) at the Premises.
ihaotrrartdrtei>na»H»ls<uMV®fll^MvPn«»)»aiIK61 laxwi d«tr}i«W*e3aooa5i,fiSM»Him.MJDe' S!S,Mt W»£«rttvsW »SK.neno>

K..POSTING & MAILING: I «ensd the Notice to the Occupanlfe) by POSTING aoopy ofthe #fo|iee(s) in a
conspicuous place on ihe Premises* as no person of suitable age or discretion could be found dme Premises and
the business cannot be ascertained. Thereafter, on the same date, i also MAILED copies of the Noficefs) to the
Occupants) by depositing a sealed envelope with First Class postage tufty prepaid, in the United States Mail
addressed to the OccupanUs) at (he Premises.
f dsciar under penalty of perjury under the laws of the State of California that at the time of service of the Noticefs) I
was St least EIGHTEEN (18) years -of age and that foregoing Is true and correct, if trailed a$ a witness to testify
thereto; I could do so competently.
Executed (signed) on i\
Name;

n

.at

i_, CaJifomia.

BfHAbj W\ok!mi,l€

txo

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX J
DEED OF FULL RECONVEYANCE FILED ON JULY 1. 2016

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

am.§2616166637

Document Requested By and
—WhetrRecqtded Return-Tee—
Jessica Bondurant
RecanTrustfcompsny, NA
4161 Piedmont Partway
NC4-105-01-32
Greensboro, NC- 27410
(800)540-2584

7V

07/01/2018 09fill'

j iiRECOUPING
&sros
of ***» v**™
FEE:
50,08
lil

,

\M?

.

.

AtxwB Spate forReccgdsr'c Use
DOCID#OB211380375453048
Comma Case# 559890
. SUBSTITUTION OF TRUSTEE AND FULL RECONVEYANCE
WHEREAS,
John IB Freitas a married man as Ms sole and separate property
Is the Trustor, CTC Real Estate Services is the current trustee and Mortgage Electronic Registration Systems, inc.1s ths
current beneficiary {‘Beneficiary*) under lhat certantteed of trust dated 10/05/2005 and recorded on 10/12/2005, as instrument or
Document Mo 256544164$,jrt BookN/APageW^'cfDfTdalRecanls of the County of Alameda, State ofCailfemfe,
,

WHEREAS, the undersigned Bensficbry hereby substitutes a new trustee, Reconfrus! Company, NA, ('Trustee*), imdjrsaid Deed of
Trust, and Trustee does hereby reconvey, without warranty, to the person or, persons fegafy entitled thereto, the estate now held by
Trustee under the Deed oFTrost
5 *
APN: N/A
Baled:
Trustee:

RecpnTrust Company, Ni. A,

TiVtx CysQ/'r-a
Tina Bwens, Assistant Vice President

",

Beneficiary.
Moiteage Electronic Ffegijib'ation Systems, Inc,
MiA-i
Kalins Reyno!ds,Assisfe!itVfoe Prudent

STATEOFNorth Carolina
COUNTY OF Guilford
J certify foal the following person® personally appeared before me this .day; each acknowledging to me that he or she sighed the
forgoing document Katina Reynolds, Assistant Vi® president a Mortgag&Eleetrcnic Registration Systems, Inc, and Tina
Owens, Assistant VfoePresident cfReconTrast Company, N, A,
r *
Date:

an hit
Bridge# P MEfflhews-Monis, Notary Public

John B Freitas
36S4S Cedar Blvd
Newark CA 94560

X?\

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX K
“NOTICE OF TRUSTEE’S SALE, RECORDED MARCH 7th 2019”

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

Stewart Title

of^ • 2019041830

Recording requested by:
Quality Loan Service Corp,

55 Jm s>

mnmfmrm

OFFICIAL RECORDS OF ALAMEDA COUNTY
MELISSA UILK
102.00
RECORDING FEE:

When recorded mail to:
Quality Loan Service Corporation
• 2763 Camino Del Rio South
San Diego, CA 92108

PCS

>

TSNo. CA-14-610521-AL
Order No.: 14-0001632-0g

SPACE ABOVE THIS LINE FOR RECORDER'S USE

NOTICE OF TRUSTEE’S SALE
NOTE: THERE IS A SUMMARY OF THE INFORMATION IN THIS DOCUMENT ATTACHED TO THE
COPY PROVIDED TO THE MORTGAGOR OR TRUSTOR (Pursuant to Cal. Civ. Code 2923.3)

g w e/Hoii
NOTA: SE ADJUNTA UN RESUMEN DE LA TNFORMACION DE ESTE DOCUMENTO
TALA: MAYROONG BUOD NGIMPORMASYON SA DOKUMENTONG ITO NA NAKALAKIP
LUU Y: KEM THEO DAY LA BAN TRINH BAY TOM LU'QC VE THONG TIN TRONG TAl LIfiU NAY
YOU ARE IN DEFAULT UNDER A DEED OF TRUST DATED 10/14/2005. UNLESS YOU TAKE
ACTION TO PROTECT YOUR PROPERTY, IT MAY BE SOLD AT A PUBLIC SALE. IF YOU NEED
AN EXPLANATION' OF THE NATURE OF THE PROCEEDING AGAINST YOU, YOU SHOULD
CONTACT A LAWYER.
A public auction sale to the highest bidder for cash, cashier's check drawn on a state or national bank, check drawn
by state or federal credit union, or a check drawn by a state or federal savings and loan association, or savings
association, or savings bank specified in Section 5102 to the Financial Code and authorized to do business in this
state, will be held by duly appointed trustee. The sale will be made, but without covenant or warranty, expressed or
implied, regarding title, possession, or encumbrances, to pay the remaining principal sum of the note(s) secured by
the Deed of Trust, with interest and late charges thereon, as provided in the note(s), advances, under the terms of the
Deed of Trust, interest thereon, fees, charges and expenses of the Trustee for the total amount (at the time of the
iaitial publication of the Notice of Sale) reasonably estimated to be set forth below. The amount may be greater on
the day of sale.
BENEFICIARY MAY ELECT TO BID LESS THAN THE TOTAL AMOUNT DUE,
Trustor(s):
Recorded:

Date of Sale:
Place of Sale:

JOHN B FREITAS, A/K/A JOHN B FREITAS, A MARRIED MAN AS HIS SOLE AND
SEPARATE PROPERTY
10/25/2005 as Instrument No. 2005459181
of Official Records in the office of the
Recorder of ALAMEDA County, California;

4/2/2019 at 12:00PM
At the Fallon Street emergency exit to the Alameda County Courthouse, located at 1225
Fallon St, Oakland, CA 94632
Amount of unpaid balance and other charges: 5515,345.74
-The purported property address is:---- 36549 CEDAR-BLVD, NEWARK, CA 94560_____________________
Assessor’s Parcel No*.: 092A-0985-021

TS No,; CA-14-610521-AL

NOTICE TO POTENTIAL BIDDERS: If you are considering bidding on this property lien, you should
understand that there are risks involved in bidding at a trustee auction. You will be bidding on a lien, not on the
property itself, Placing the highest bid at a trustee auction does not automatically entitle you to free and clear
ownership of the property. You should also be aware that the lien being auctioned off may be a junior lien, If you
are the highest bidder at the auction, you are or may be responsible for paying off all liens senior to the lien being
auctioned off, before you can receive clear title to the property. You are encouraged to investigate the existence,
priority, and size of outstanding liens that may exist on this property by contacting the county recorder’s office or a
title insurance company, either of which may charge you a fee for this information. If you consult either of these
resources, you should be aware that the same lender may hold more than one mortgage or deed of trust on the
property.
NOTICE TO PROPERTY OWNER: The sale date shown on this notice of sale may be postponed one or more
times by the mortgagee, beneficiary, trustee, or a court, pursuant to Section 2924g of the California Civil Code. The
law requires that information about trustee sale postponements be made available to you and to the public, as a
courtesy to those not present at the sale. If you wish to learn whether your sale date has been postponed, and, if
applicable, the rescheduled time and date for the sale of this property, you may call 916-939-0772 for information
regarding the trustee’s sale or visit this Internet Web site http://www.quaIityioan.eoin, using the file number
assigned to this foreclosure by the Trustee: CA-14-610521-AL. Information about postponements that are very short
in duration or that occur close in time to the scheduled sale may not immediately be reflected in the telephone
information or on the Internet Web site. The best way to verify postponement information is to attend the scheduled
sale.
The undersigned Trustee disclaims any liability for any incorrectness of the property address or other common
designation, if any, shown herein. If no street address or other common designation is shown, directions to the
location of the property may be obtained by sending a written request to the beneficiary within 10 days of the date of
first publication of this Notice of Sale.
If the sale is set aside for any reason, including if the Trustee is unable to convey title, the Purchaser at the sale shall
be entitled only to a return of the monies paid to the Trustee. This shall be the Purchaser’s sole and exclusive
remedy.. The purchaser shall have no further recourse against the Trustor, the Trustee, the Beneficiary, the
Beneficiary’s Agent, or the Beneficiary’s Attorney,
H10^Sly+?T5S^h^SedJthI0Ugh bankruPtcy> y°u may have been released of personal liability for
n n which case this letter is intended to exercise the note holders right’s against the real property only.

TO COLLECT A D“T AND
Date:

Quality Loan Service Corporation
2763 Camino Del Rio South
San Diego, CA 92108
619-645-7711 For NON SALE information only
Sale Line: 916-939-0772
Or Login to: http://www.qualityloan.com
Rphrtfatwnent Line: (866) 6
11 Ext 5318

1
Quality ] an SaViSe Corp. by: Ronald Alonzo, Assistant
Secretary

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX L
LETTER FROM COMMISSION ON JUDICIAL PERFORMANCE

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

JltfafE of (California

fflommissinn an 3|ui»trtal ^Performance
455 (Bnltren (Bate jA&eraie, JlmitE 14400
^an 3[ranrtsca, (GjA 94102-3660
(415) 557-1200
Fax (415) 557-1266
Website: http://cjp.ca.gov

January 26, 2021

John B. Freitas
36937 Cherry Street
Newark, CA 94560
Dear John B. Freitas:
This letter is to acknowledge receipt of your recent complaint against a California
judge(s). We appreciate your time and effort in bringing this matter to the commission’s
attention. We are presently reviewing this information and, if further information;is:.
needed,, you will-bie contacted;. nYou: will .beiadvised in writing, at a later date,, of'the' <S!;■
sn ;
commission’s:'action in thismatten \
••

't;:;-.;

■ r

•

•

•Tp give you-some infonnatipn-about tbeprocesspeach complainuabout a'judge is
voted upon by the. commission.. When anomplaint -states'; facts 'whith cduld- b,e: ’ v';
misconduct, if the facts are true and there is not another explanation for what happened,
the commission typically opens an investigation. The commission’s staff will interview
witnesses, review documents or files and conduct other investigation. If there is
sufficient evidence supporting the complaint, the judge will be contacted and asked to
respond to the allegations. The commission then reviews the available evidence, and the
judge’s response if the judge was contacted, to make a determination whether misconduct
has occurred. Misconduct must be established by clear and convincing evidence, a
higher standard than is required in civil cases but lower than in criminal cases. If the
evidence does not support a finding of misconduct, the commission will close the case.
The commission may also close the case if the misconduct was relatively minor and the
judge has acknowledged the problem and taken steps to prevent it from happening again.
If the evidence supports a finding of misconduct and. the commission determines that
discipline may be appropriate, the commission may proceed to impose discipline.
•••.-.It-may also be helpful to explain that the Gom'mission'on'Judicial’Performance is
not a court.v-It do.esvnot have the/authority to reverse-a^udge-s decisidn,hndve;yduf'case:''
to another department or court, disqualify a judge or otherwise get involved in your case.
The commi.ssio.n-;.S;role>.is..ii3Tiited:to reviewing allegations of judicial misconduct. A
judge’s legal rulings and discretionary decision-making, without more/are not a basis for
review by the commission.. Even if a judge’s de.cisiomisdater .determined'by an appellate

John B. Freitas
January 26, 2021
Page Two

court to be legally incorrect, that by itself is not a violation of the Code of Ethics and is
not misconduct. A judge’s legal error might be a basis for investigation by this
commission if there is sufficient evidence of bad faith, bias, abuse of authority, disregard
for fundamental rights, intentional disregard of the law or any purpose other than the
faithful discharge of judicial duty.
Lastly, our office is not able to provide legal advice. If you wish to determine
what legal avenues are available to you, you might consider contacting an attorney or
legal services provider to see if they can help you.
Very truly yours,

Nicole M. Benavidez
Secretary to Staff Counsel

Confidential under California Constitution,
Article VI, Section. 18, and Commission Rule 102

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B, Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX M
DEED OF TRUST RECORDED OCTOBER 12™ 2005

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case#D.C.No. 3:19-cv-03347-WHA

Recording Requested By:
J • ARIAS
Of 4(

lender Service -PLQ,
Fidelity National Financra!

il\
m )

18/12/288511:16 *

2285441646

gF flLAtlEOA C€UNTV

®c.&
RECORDING FEE:

52,00

After Recording Return To:
COUNTRYWIDE HOME LOANS, INC.
13
MS SV-79 DOCUMENT PROCESSING
P.O.Box 10423
Van Nuys, CA 91410-0423
Prepared By:
BARRINGTON TAYLOR

ipH{fn2aa
OCj ifi - OTSS - 021

PCS

\

[Space Above This Line For Recording Data]
113803754
(Escrow/Closing #)

00011380375410005
[Doc ID #}

DEED OF TRUST AND ASSIGNMENT OF RENTS
MIN 1001337-0000945117-3
This Deed of Trust secures an obligation which calls for payment of interest at a variable interest rate.
day of October, 2005
.between
THIS DEED OF TRUST is made this 5th
JOHN B FREITAS A MARRIED MAN AS HIS SOLE AND SEPARATE PROPERTY

whose address is.
36549 CEDAR BLVD, NEWARK, CA 94560
herein called "Trustor,"
CTC REAL ESTATE SERVICES
400 COUNTRYWIDE WAY, MSN SV-88, SIMI VALLEY, CA 93065
herein called "Trustee," and MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC., ("MERS")
a Delaware corporation with an address of P.O. Box 2026, Flint, MI 48501-2026, tel. (888) 679-MERS,
MERS Is the "Beneficiary" under this Deed of Trust and is acting solely as a nominee for
Countrywide Bank, N.A.
("Lender" or "you*') and its successors and assigns, with an address of
1199 North Fairfax St. Ste.500, Alexandria, VA 22314
Trustor irrevocably grants, transfers and assigns to Trustee, in trust and with power of sale, all of the real
.County of
property in the City or Town of NEWARK
, State of California, having the street address of
ALAMEDA
36549 CEDAR BLVD, NEWARK, CA 94560-2532
• MERS HELOC - CA Dead of Trust
1D988-CA (02/04)(d)

* 2 3 9 9 1 *

Page 1 of 10

Initials:,

* 1 138037 8'4 00000 4 0988*

DOC ID #: 00011360375410005
and more specifically described as:
SEE EXHIBIT "A"'ATTACHED HERETO AND MADE A PART HEREOF.

together with all improvements
now or hereafter erected on the property, and all easements, rights, appurtenances, rents (subject however to
the rights and authorities given herein to Lender to collect and apply such rents), royalties, mineral, oil and
gas rights and profits, water, water rights, and water stock, and all fixtures now or hereafter attached to the
property, all of which, including replacements and additions thereto, shall be deemed to be and remain a part
of the property covered by this Deed of Trust; and all of the foregoing, together with sad property (or the
leasehold estate if this Deed of Trust is on a leasehold) are herein referred to as the "Property,"
Parcel ID Number: 092A0985021

TRUSTOR UNDERSTANDS and agrees that MERS is a separate corporation acting solely as nominee
for Lender and Lender's successors and assigns, and holds only legal title to the interests granted by Trustor
in this Deed of Trust, but, if necessary to comply with law or custom, MERS (as nominee for Lender and
Lender’s successors and assigns) has the right: to exercise any or all of those interests, including, but not
limited to, the right to foreclose and sell the Property, and to take any action required of Lender including,
but not limited to, releasing or canceling this Deed of Trust.
1.

THIS DEED OF TRUST SECURES:
a, All of the obligations of Trustor in favor of Lender or order under the terms of a revolving
credit agreement dated october 5, 2005
, herein called Agreement. The Agreement
provides, among other things, for the payment of all sums advanced by Lender from time to time
pursuant to the Agreement and for the payment of interest The maximum principal obligation
under the Agreement to be secured by this Deed of Trust at any one time is
THREE HUNDRED FORTY NINE THOUSAND EIGHT HUNDRED FORTY and 00/100

Dollars($ 34 9, 840.00
) unless Lender, with Trustor's written consent, hereafter
increases this amount. Advances made by Lender to protect the security of this Deed of Trust or to
preserve the Property shall not be subject to the limitation of the preceding sentence.
The security of this Deed of Trust shall not be affected by the extension, renewal or modification
from time to time of the obligations, instruments or agreements described above.
b. Payment of any and all obligations and liabilities, whatsoever, whether primary, secondary,
direct, indirect, fixed or contingent, whether now or hereafter due from Trustor (or any successor in
interest to Trustor) whether created directly or acquired by assignment if the document evidencing
such obligation or liability or any other writing signed by Trustor (or any successor in interest to
Trustor) specifically provides that said obligation or liability is secured by this Deed of Trust
• MERS HELOC - CA Dead of Trust
1D98 SCA (02/04)

Page 2 of 10

Initials:

DOC ID #: 00011380375410005
c, . Performance of each agreement of Trustor herein contained or contained in any other
agreement, instrument or other writing to which Trustor is a party if the same is written in
connection with any of the foregoing.
d.
2.

Payment of all sums to be expended by the Lender or Trustee pursuant to the terms hereof.

TO PROTECT THE SECURITY OF THIS DEED OF TRUST, TRUSTOR AGREES:
a. To keep the Property in good condition and repair; not to remove or demolish any building or
. improvement thereon; to complete or cause to be completed any construction of buildings or other
improvements thereon which are financed in whole or in part by the indebtedness secured hereby
and to restore promptly and in good and workmanlike manner any building or other improvement
which may be damaged or destroyed thereon and to pay when due all claims for labor performed
and materials furnished therefor; to comply with all laws affecting the Property or requiring any
alteration or improvements to be made thereon; not to commit or permit waste thereof; not to
commit, suffer or permit any act upon said Property in violation of law; to cultivate, irrigate, weed,
fertilize, fumigate, spray, prune and do all other acts which from the character or use of the Property
may be reasonably necessary, the specific enumerations herein not excluding the general.
b. To provide, maintain and deliver to Lender fire and other insurance on the Property
satisfactory to and with loss payable to Lender. The amount collected under any fire or other
insurance policy may be applied by Lender upon indebtedness secured hereby and in such order as
Lender may determine, or at option of Lender, the entire amount so collected or any part thereof
may be released to Trustor. Such application or release shall not cure or waive any default
hereunder or invalidate any act done pursuant to such notice.
c. To appear in and defend any action or proceeding purporting to affect the security hereof or
the rights or powers of Lender or Trustee; and to pay all costs and expenses, including cost of
evidence .of title and attorney's fees in a reasonable sum, in any such action or proceeding in which
Lender or Trustee may appear, and in any suit brought by Lender to. foreclose this Deed of Trust. It
is agreed that the Lender shall be subrogated to the claims and liens of all parties whose claims or
liens are discharged or paid with the proceeds of the Agreement secured hereby.
d. To pay at least ten days before delinquency all taxes and assessments affecting the Property,
including, without limitation, assessment on appurtenant water stock, all encumbrances, charges
and liens on the Property or any part thereof, and all costs, fees and expenses of this trust,
e. That should Trustor fail to make any payment or do any act as herein provided, then Lender or
Trustee, but without obligation so to do and without notice to or demand upon Trustor and without
releasing Trustor from any obligation hereof, may;
(1) Make or do the same in such manner and to such extent as either may deem
necessary or appropriate to protect the security hereof, Lender or Trustee being authorized
to enter upon the Property for such purposes.
(2) Appear in and defend any action or proceeding purporting to affect the security
hereof or the rights or power of Lender or Trustee.

• MERS HELOC - CA Oeed of Trust
1D9S8-CA (02/04)

Page 3 of 10

Initials:

DOC ID #: 00011380375410005
(3) Pay, purchase, contest or compromise any encumbrance, charge or Hen which in the
judgment of either appears to be prior and superior hereto.
(4) In exercising any such powers, pay necessary expenses, employ counsel and pay his
or her reasonable fees.
f. To pay immediately and without demand all sums so expended by Lender or Trustee, with
interest from date of expenditure at the maximum rate allowed by law in effect at the date hereof or
at the option of Lender, such sums may be added to the principal balance of any indebtedness
secured hereby and shall bear the highest rate of interest as any such indebtedness.
g. To pay for any statement provided for by the law in effect on the date hereof regarding the
obligation secured hereby in the amount demanded by the Lender but not to exceed the. maximum
allowed by law at the time the statement is demanded,
3.

IT IS FURTHER AGREED THAT:
a. Any award of damages in connection with any condemnation for public use of of injury to the
Property or any part thereof is hereby assigned and shall be paid to Lender who may apply or
release such monies received by it in the same manner and with the same effect as above provided
for disposition of proceeds of fire or other insurance.
b. By accepting payment of any sum secured hereby after its due date, or after the filing of notice
of default and of election to sell, Lender shall not waive its right to require prompt payment when
due of all other sums so secured, or to declare default for failure so to pay, or to proceed with the
sale under any such notice of default and of election to sell, for any unpaid balance of said
indebtedness. If Lender holds any additional security for any obligation secured hereby, it may
enforce the sale thereof at its option, either before, contemporaneously with, or after the sale is
made hereunder, and on any default of Trustor, Lender may, at its option, offset against any
indebtedness owing by it to Trustor, the whole or any part of the indebtedness secured hereby.
c. Without affecting the liability of any person, including, without limitation, Trustor, for the
payment of any indebtedness secured hereby, or the lien of this Deed of Trust on the remainder of
the Property for the full amount of any indebtedness unpaid, Lender and Trustee are respectively
empowered as follows:
(1) Lender may from time to time and without notice (a) release any person liable for the
payment of any of the indebtedness, (b) extend the time or otherwise alter the terms of
payment of any of the indebtedness, (c) accept additional security therefor of any kind,
including Deeds of Trust or mortgages, (d) alter, substitute or release any of the Property
securing the indebtedness.
(2) Trustee may, at any time, and from time to time, upon the written request of Lender
(a) consent to the making of any map or plat of the Property, <b) join in granting any
easement or creating any restriction thereon, (c) join in any subordination or other
agreement affecting this Deed of Trust or the lien or charge thereof or, (d) reconvey,
without any warranty, all or any part of the Property.

• MERS HELOC-CA Deed of Trust
10988*C A (02/04)

Page 4 of 10

DOC ID #: 00011380375410005
d. Upon (a) written request of Lender or (b) performance of all obligations of the Trustor
hereunder and under each and every note, guarantee, Agreement or other writing evidencing the
indebtedness secured hereby, and upon surrender of this Deed of Trust to Trustee for cancellation
and retention and upon payment of its fees, Trustee shall reconvey, without warranty, the Property
then held hereunder, The recital in such reconveyance of any matters of facts shall be conclusive
proof of the truthfulness thereof. The grantee in such reconveyance may be described as "the person
or persons legally entitled thereto." Five years after issuance of such reconveyance, Trustee may
destroy said note, guarantee. Agreement or other evidence of indebtedness and this Deed of Trust
(unless directed in such request to retain them).
e. Trustor hereby gives to and confers upon Lender the right, power and authority during the
continuance of these trusts to collect the rents, issues and profits of the Property and of any personal
property located thereon, and hereby absolutely and unconditionally assigns all such rents, issues
and profits to Lender; provided, however, that Lender hereby consents to the collection and
retention of such rents, issues and profits as they accrue and become payable only if Trustor is not,
at such time, in default with respect to payment of any indebtedness secured hereby or in the
performance of any agreement hereunder. Upon any such default, Lender may at any time, without
notice, either in person, by agent, or by a receiver to be appointed by a court, without regard to the
adequacy of any security for the indebtedness hereby secured and without limiting the generality of
Section 2,e,(l), above, enter upon and take possession of the Property or any part thereof, and in its
own name sue for or otherwise collect such rents, issues and profits, including those past due and
unpaid, and apply the same, less costs and expenses of operation and collection, including
reasonable attorney's fees, upon any indebtedness secured hereby, and in such order as Lender may
determine; also perform such acts of repair, nurturing, cultivation, irrigation, weeding, fertilizing,
. fumigation, spraying, pruning or protection, as may be necessary or proper to conserve the value of
the Property or any trees, planting or crops growing thereon; also lease the same or any part thereof
for such rental, term, and upon such' conditions as its judgment may dictate; also prepare for
harvest, sever, remove, and sell any crops that may be growing upon the premises, and apply the net
proceeds thereof to the indebtedness secured hereby, The entering upon and taking possession of
the Property and performance or failure to perform any of the acts described in the preceding
sentence, the collection of or failure to collect such rents, issues and profits, and the application
thereof as aforesaid, shall not waive or cure any default or notice of default hereunder, or invalidate
any act done pursuant to such notice and shall not constitute or otherwise result in any assumption
by or liability of Lender for maintenance, depreciation, misuse or risk of loss other than for damage
or loss to the Property due to Lender’s gross negligence or intentional torts. Trustor also assigns to
Trustee, as further security for the performance of the obligations secured hereby, aD prepaid rents
and all monies which may have been or may hereafter be deposited with said Trustor by any lessee
of the premises herein described, to secure the payment of any rent, and upon default in the
performance'of any of the provisions hereof. Trustor agrees to deliver such rents and deposits to the
Trustee.
f. Upon default by Trustor in the performance of any payment or other obligation secured hereby
or in the performance of any agreement hereunder, or if, whether voluntarily or involuntarily, there
is a sale or transfer of all or any part of (i) the Property or an interest therein, or (ii) a beneficial
interest in Trustor and Trustor is not a natural person, or if Trustor ceases to use the Property as
Trustor's primary residence, Lender may declare all sums secured hereby immediately due without
notice or demand and no waiver of this right shall be effective unless in writing and signed by
Lender.
• MERS HECOC - CA Deed o1 Trust
1D988-CA (02/04)

Page S o)10

Inltlare:

DOC ID #: 00011380375410005
g. Waiver of a right granted to Lender hereunder as to one transaction or occurrence shall not be
deemed to be a waiver of the right as to any subsequent transaction or occurrence. Lender may
rescind any notice before Trustee's sale by executing a notice of rescission and recording the same.
The recordation of such notice shall constitute also a cancellation of any prior declaration of default
and demand for sale, and of any acceleration of maturity of indebtedness affected by any prior
declaration or notice of default. The exercise by Lender of the right of rescission shall not constitute
a waiver of any default then existing or subsequently occurring, nor impair the right of the Lender
to execute other declarations of default and demand for sale, or notices Of default and of election to
cause the Property to be sold, nor otherwise affect the note or deed of trust, or any of the rights,
obligations or remedies of the Lender or Trustee hereunder.
h. At least three months or any lesser period required by law having elapsed between the
recordation of the notice of default and the date of sale, Trustee, having first given notice of sale as
then required by law, shall sell the Property at the time and place of sale fixed by it in the notice of
sale, either as a whole or in separate parcels, and in such order as the Trustee may determine, at
public auction to the highest bidder for cash, in lawful money of the United States of America,
payable at the time of sale except as otherwise permitted by law. Trustee may postpone sale of all
or any portion of the Property by public announcement at the time of sale, and from time to time
thereafter may postpone the sale by public announcement, all as permitted by law. Trustee shall
deliver to the purchaser its deed conveying the Property so sold, but without any covenant or
warranty, expressed or implied. The recital in any such deed of any matters or facts, stated either
specifically or in general terms, or as conclusions of law or fact, shall be conclusive proof of the
truthfulness thereof. Any person, including Trustor, Trustee or Lender, may purchase at the sale.
After deducting all costs, fees and expenses of Trustee and of this trust, including costs of evidence
of title in connection with the sale, the Trustee shall apply the proceeds of this sale to the payment
of all sums then secured hereby, in such order and manner as may be required by die Lender; the
remainder, if any, to be paid to the person or persons legally entitled thereto. If Lender shall elect to
bring suit to foreclose this Deed of Trust in the manner and subject to the provisions, rights and
remedies relating to the foreclosure of a mortgage, Lender shall be entitled to reasonable attorney's
fees and litigation costs.
i. Lender, or any successor in ownership of any indebtedness secured hereby, may from time to
time, by instrument in writing, substitute a successor or successors to any Trustee named herein or
acting hereunder, which instrument, executed by the Lender and duly acknowledged and recorded
in the office of the recorder of the county or counties where said Property is situated, shall be
conclusive proof of proper substitution of such successor Trustee or Trustees, who shall, without
conveyance from the Trustee predecessor, succeed to all its title, estate, rights, powers and duties.
Said instrument must contain the name of the original Trustor, Trustee and Lender hereunder, the
book and page where this Deed of Trust is recorded and the name and address of the new trustee.
j. This Deed of Trust applies to, inures to the benefit of, and binds all parties hereto, their heirs,
legatees, devisees, administrators, executors, successors and assigns. The term Lender shall mean
the owner and holder, including, without limitation, pledgees, of the note, guarantee, Agreement, or
other evidence of indebtedness secured hereby, whether or not named as Lender herein. In this
Deed of Trust, whenever the context so requires, the singular number includes the plural.

• MERS HELOC - OA Dsed of Trust
1D9B8-CA (02/04)

Pages of 10

DOC ID #: 00011380375410005
k. Trustee accepts this trust when this Deed of Trust, duly executed and acknowledged, is made a
public record as provided by law. Trustee is not obligated to notify any party hereto of pending sale
under any other Deed of Trust or of any action or proceeding in which Trustor, Lender or Trustee
shall be a party unless brought by Trustee.
l. If Trustor or any successor in interest to Trustor sells, transfers or encumbers any interest in the
Property, whether voluntarily or involuntarily, or if a beneficial interest in Trustor is sold or
transferred, voluntarily or involuntarily, and Trustor is not a natural person: (a) the transferor and the
transferee shall each immediately give written notice of said transfer to the Lender, at its address
designated on the first page of this Deed of Trust: (b) if this Deed of Trust secures Trustor's
obligation under an Agreement as defined herein, all credit extended by Lender under the Agreement,
whether before or after the Property is transferred, shall be secured under this Deed of Trust as if no
transfer had occurred except for credit extended by Lender more than five days after it has received
die written notices required by this paragraph.
m. The pleading of any statute of limitations as a defense to any and all obligations secured by this
Deed ofTrust is hereby waived to the full extent permitted by law.
4.

WITH REGARD TO ENVIRONMENTAL LAWS AND HAZARDOUS SUBSTANCES,
TRUSTOR AGREES:
a. As used in this Paragraph 4:
(1) "Environmental Law" means all federal, state and local law concerning the public health,
safety or welfare, environment or a Hazardous Substance, including without limitation, the
Comprehensive Environmental Response, Compensation and Liability Act, 42 U.S.C. Sec. 9601 et
seq.. Resource Conservation and Recovery Act, 42 U.S.C. Sec. 6901 et seq., Toxic Substances
Control Act, 15 U.S.C. Sec. 2601 et seq., Hazardous Materials Transportation Act, 49 U.S.C. Sec.
1801 et seq., Clean Water Act and Water Quality Act of 1987, 33 U.S.C. Sec. 1251 et seq., Safe
Drinking Water Act, 41 U.S.C. Sec. 300f et seq., Clean Air Act, 42 U.S.C. Sec. 7901 et seq.,
Carpenter-Presley-Tanner Hazardous Account Act, CaLHealth & Safety Code Sec. 25300 et seq.,
Hazardous Waste Control Law, CaLHealth & Safety Code Sec. 2.5100 et seq., Porter-Cologne
Water Quality Control Act, Cal.Water Code Sec. 1300 et seq., Hazardous Waste Disposal Land Use
Law, CaLHealth & Safety Code Sec. 25220 et seq., Safe Drinking Water and Toxic Enforcement
Act of 1986, CaLHealth & Safety Code Sec. 25249.5 et seq., Hazardous Substances Underground
Storage Tank Law, CaLHealth & Safety Code Sec. 25280 et seq., Air Resources Law, CaLHealth &
Safety Code Sec. 3900 et seq.. Hazardous Materials Release Response Plans and Inventory,
CaLHealth & Safety Code Sec. 25500 et seq., and Toxic Pits Cleanup Act of 1984, CaLHealth &
Safety Code Sec. 25208 et seq.
(2) "Hazardous Substance" means any substance which has characteristics of ignitability,
corrosivity, toxicity, reactivity or radioactivity or other characteristics which render it dangerous or
potentially dangerous to public health, safety or welfare or the environment, including without
limitation, (i) petroleum or any fraction or other byproduct thereof, (ii) asbestos, (iii) lead, (iv)
cyanide, (v) polychlorinated biphenyls, (vi) urea formaldehyde and (vii) anything defined as a
"hazardous material," "toxic substance," "hazardous substance," "hazardous waste" or "waste"
under any Environmental Law, including without limitation, "hazardous substance" as defined in
CaLHealth & Safety Code Sec. 25316 and "waste" and "hazardous substance" as defined in
Cal.Water Code Sec. 13050(d) and Sec. 13050(p)(l), respectively. The term is intended by Trustor
and Lender to be interpreted in its most comprehensive and cumulative sense.

• MERS HELOC - CA Deed of Trust
1D988-CA (02AM)

Page 7 of 10

DOC ID #; 00011380375410005
b. Trustor represents and warrants that except as disclosed to and acknowledged in writing by
Lender before the date of this Deed of Trust:
(1) No Hazardous Substance has been located, used, manufactured, generated, treated,
handled, stored, spilled, disposed of, discharged or released by any person on, under or
about the Property.
(2) Trustor has no knowledge of or reason to believe that there is any pending or
threatened investigation, assessment, claim, demand, action or proceeding of any kind
relating to (i) any alleged or actual Hazardous Substance located under or about the Property
or (ii) alleged or actual violation or noncompliance by Trustor or any tenant of Trustor with
regard.to any Environmental Law involving the Property.
(3) Neither Trustor nor any tenant of Trustor is required by any Environmental Law to
obtain or maintain any permit, license, financial responsibility certificate or other approval
as. a condition to its business operations or in connection with its use, development or
maintenance of the Property.
c. Trustor represents and warrants that Trustor and every tenant of Trustor have been, are and
will remain in full compliance with any Environmental Law applicable to its business operations
and its use, development or maintenance of the Property.
d. Trustor agrees to permit, or cause any tenant of Trustor to permit, Lender to enter and inspect
the Property at any reasonable time for purposes of determining, as Lender deems necessary or
desirable: (i) the existence, location and nature of any Hazardous Substance on, under or about the
Property, (ii) the existence, location, nature, magnitude and spread of any Hazardous Substance that
has been spilled, disposed of, discharged or released on, under of about the Property or (iii) whether
or not Trustor and any tenant of Trustor are in compliance with applicable Environmental Law. If
Trustor or its tenant fails to comply fully with the terms hereof, Lender may obtain affirmative
injunctive relief therefor.
e. Trustor agrees to indemnify and hold Lender and its successors or assigns harmless from and
against all losses, claims, demands, liabilities, damages, cleanup, response and remediation costs,
penalties and expenses, including, without limitation, all costs of litigation and attorneys' fees,
which Lender and its successors and assigns may directly or indirectly sustain or suffer as a
consequence of any inaccuracy or breach of any representation, warranty or promise made in this
Deed of Trust in connection with any Hazardous Substance or Environmental Law.
Notwithstanding any of the language in this Deed of Trust to the contrary, this indemnity covers
claims asserted after all the indebtedness secured by this Deed of Trust has been paid and
discharged, whether or not this Deed of Trust has also been reconveyed to Trustor. The only
exclusions hereto may relate to claims arising out of the affirmative acts of Lender or of a third
party after Trustor's interest in the Property has terminated.

• MERS HELOC - CA Deed of Trust
1D988-CA (02/04)

Page 8 of 10

Ini

i

DOC ID #: 00011380375410005
f. The provisions of this Paragraph 4 shall not be affected by the acquisition by Lender or its
successors or assigns of any ownership or other interest in the Property beyond Lender’s security
interest in the Property created under this Deed of Trust, whether or not such acquisition is pursuant
to the foreclosure of this Deed of Trust or a merger of the interest of the Lender or its successors
and assigns in the Property,
5.

ADDITIONAL PROVISIONS:
. a. The execution of this Deed of Trust by any person who has no present interest in the Property
shall not be deemed to indicate that such an interest presently exists. Rather, execution of this Deed
of Trust by such a person shall constitute such person's agreement that if such person hereafter
acquires an interest in the Property, such interest shall be subject to the interest granted hereunder.
b. The execution of this Deed of Trust by any person who has a present interest in the Property
shall not in itself be deemed to indicate that such person is liable to Lender for any obligation
described in Section 1., above. Any personal liability of such person to Lender shall be determined
on an independent basis (such as execution of the document or documents evidencing the obligation
described in Section l„ above). Execution of this Deed of Trust by any such person shall
nevertheless indicate that such person’s interest in the Property shall be subject to the interest
granted hereunder.

• MERS HELOC- CA Deed of Trust
10988-0A (02/04)

Page 9 of 10

t

DOC ID #; 00011380375410005
The undersigned Trustors request that a copy of any notice of default, and of any notice of sale
hereunder, be mailed to their respective addresses set forth below.
By signing below, Trustor agrees to all the terms and conditions of this Deed of Trust
Mailing Address For Notices

NEWARK, CA 94560
FATIMA- FUETTAC

State of California
County of

on

.

(S-dU s, Stoas

, before me

& kiincj,
,persoria]Iy appeared

1?>. FAuitU
, personally known WTO (or proved to me on the basis
of satisfactory evidence) to be the personas) whose namefc) is/are subscribed to the within instrument and
acknowledged to me that he/sheAfeeyexecuted the same in his/her/their authorized capacity(ies), and that by
his/herAheir signature^) on the instrument the person(s), or the entity upon behalf of which the person(s)
acted, executed the instrument.
WITNESS my hand and official seal.

tl H

m
Sees

• MEHS HELOC - CADeed of Trust
1D98BCA <02/04)

Pago 10 Of 10

{

eSBb MWAftV WiaUC-CAUfCAMA ®
&Su.. ALAMS0A COUNTY

